<html>
<title> - AL-QAEDA'S RESURGENCE IN IRAQ: A THREAT TO U.S. INTERESTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                    AL-QAEDA'S RESURGENCE IN IRAQ: 
                       A THREAT TO U.S. INTERESTS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 5, 2014

                               __________

                           Serial No. 113-116

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
86-588                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f283f200f2c3a3c3b272a233f612c202261">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Mr. Brett McGurk, Deputy Assistant Secretary for Iraq and Iran, 
  Bureau of Near Eastern Affairs, U.S. Department of State.......     6

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Brett McGurk: Prepared statement.............................    10

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Material submitted for the record..............    57
Responses from Mr. Brett McGurk to questions submitted for the 
  record by the Honorable Alan S. Lowenthal, a Representative in 
  Congress from the State of California..........................    58


       AL-QAEDA'S RESURGENCE IN IRAQ: A THREAT TO U.S. INTERESTS

                              ----------                              


                      WEDNESDAY, FEBRUARY 5, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:07 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    This morning we consider al-Qaeda's resurgence in Iraq. An 
unfortunate reality is that al-Qaeda in Iraq, now known as the 
Islamic State of Iraq and the Levant, or ISIS as you see it in 
the papers, is growing steadily in size, it's growing steadily 
in power and influence and its militant ranks have blossomed.
    Last summer, ISIS carried out attacks on two different 
prisons in Iraq and in those attacks freed hundreds of 
experienced al-Qaeda fighters and leaders. The group is now 
able to carry out approximately 40 mass casualty attacks every 
month.
    Multiple car bombings struck the capital this morning. The 
nearly 9,000 deaths in Iraq last year made it the bloodiest 
since U.S. forces departed in 2011.
    The civil war in neighboring Syria only further strengthens 
this group. Militants are able to flow freely between Iraq and 
Syria, providing ISIS an advantage as it works to advance its 
regional vision of a radical Islamist state.
    Their gains have been dramatic. Last month, these fighters 
took advantage of a security vacuum in Anbar Province, entering 
the cities of Fallujah and Ramadi in columns of trucks mounted 
with heavy machine guns and raising the black flag over 
government buildings.
    Of course, Anbar Province is where U.S. Marines fought so 
hard to push out al-Qaeda. In recognizing those and other great 
sacrifices, I should note that this committee benefits from the 
first-hand experiences of Mr. Kinzinger, Mr. Cotton, Mr. Perry, 
Mr. DeSantis, Mr. Collins and Ms. Gabbard, all of whom served 
with distinction in Iraq.
    This threat is evolving. Earlier this week, al-Qaeda's 
central leadership declared that those operating in western 
Iraq and Syria were no longer an affiliated group.
    We will see how this power struggle develops, but ISIS' 
independence is a reflection of its unprecedented resources, 
including weapons and personnel and cash and its resulting 
operational strength.
    This is a threat to Iraq but also to us. ISIS has 
reportedly been actively recruiting individuals capable of 
travelling to the U.S. to carry out attacks here.
    While al-Qaeda in Iraq has been powered by prison breaks 
and by the Syrian civil war, it has also been fuelled by the 
alienation of much of the Sunni population from the Shi'a 
dominated government in Baghdad. Al-Qaeda has become very 
skilled at exploiting this sectarian rift and Maliki's power 
grab has given them much ammunition.
    This is a point that Ranking Member Eliot Engel and myself 
raised and underscored with President Maliki when he visited 
Washington last fall.
    This committee will play a central role as the United 
States moves to send military equipment to help the Iraqis 
fight these terrorists. Appropriate intelligence can be shared 
as well.
    But Iraqis should know that their relations with Iran and 
the slow pace of political reconciliation with minority groups 
raise serious congressional concerns.
    While we may not be--as head of state, while he may not be 
up to it, Maliki must take steps to lead Iraq to a post-
sectarian era. The Iraqi Government is far from perfect and 
only the Iraqis can control their future.
    But if we don't want to see an Iraq with large swaths of 
territory under militant control, and we should not, then we 
must be willing to lend an appropriate hand.
    And I'll now turn to the ranking member, Mr. Engel, for any 
opening comments. Mr. Engel from New York.
    Mr. Engel. Thank you very much, Mr. Chairman.
    Thank you for holding this important hearing on al-Qaeda's 
resurgence in Iraq and the threat this poses to U.S. security 
interests. I appreciate the close collaboration that we have 
working on this and so many other issues on this committee.
    Last month, al-Qaeda extremists occupied the city of 
Fallujah and parts of Ramadi in Iraq's Sunni-dominated Anbar 
Province. To be sure, this has serious implications for Iraq's 
security but it also has a deeper, symbolic meaning for 
Americans.
    As all of us know, U.S. Marines fought two bloody battles 
to secure Fallujah during the Iraq war. I want to acknowledge 
our brave men and women in uniform who lost their lives, as 
well as their families who continue to grieve their losses 
every day. It breaks my heart when I see what's happening in 
Iraq today.
    Iraq continues to be ravaged by sectarian violence and the 
situation is getting worse. Last year, more than 8,500 Iraqis 
were killed in bombings, shootings and other violent acts, the 
most since 2008.
    I should note that on Monday of this week, the senior 
leadership of al-Qaeda excommunicated and disowned their 
affiliate, the Islamic State of Iraq and Syria, ISIS, as a 
result of that group's tactics in Syria. For the purpose of 
this hearing, ISIS remains a threat to stability in Fallujah, 
other areas of Anbar Province and the whole of Iraq.
    Some may argue that the lack of an enduring U.S. troop 
presence in Iraq has contributed to the resurgence of violence, 
especially Sunni terrorism related to al-Qaeda.
    But let's be honest. The dire security situation in Anbar 
Province is much more about Iraqi politics than it is about the 
United States.
    In any case, the direct use of U.S. military force in Iraq 
is virtually unthinkable at this point. We've withdrawn from 
Iraq and we aren't going back. Although we no longer have boots 
on the ground, however, the U.S. does maintain a huge stake in 
Iraq's security, and I believe we should continue to provide 
appropriate assistance to the Iraqi military in their fight 
against ISIS.
    But we must also recognize that the current situation in 
Anbar cannot be resolved through military means alone. An all-
out assault on Fallujah by the Iraqi security forces would play 
right into hands of ISIS, reinforcing the perception among 
Sunnis that they have been systematically victimized by Prime 
Minister Maliki's Shia-led government.
    To defeat al-Qaeda, the Iraqi Government must take a page 
out of our play book from the Iraq war and enlist moderate 
Sunni tribes in the fight. I understand that Vice President 
Biden recently discussed this issue with Prime Minister Maliki, 
encouraging him to incorporate tribal militias fighting ISIS 
into the Iraqi security forces and to compensate those injured 
and killed in battle.
    By taking these steps, I am hopeful that Maliki can begin 
to bridge the widening sectarian gulf in Iraq. The 
deterioration of Iraq's control over Anbar is also linked to 
larger regional dynamics.
    We saw how al-Qaeda in Iraq expanded its franchise into 
Syria, and we now see violence from that brutal war spilling 
back into Iraq. This has strengthened ISIS and served as a 
recruitment vehicle for thousands of foreign fighters.
    The slow bleed in Syria has been a clear hindrance to 
progress in Iraq. Iran's nefarious influence in the region also 
contributes to instability. It is well known that some senior 
Iraqi officials have a very cozy relationship with Iran, and 
Iraq has not done nearly enough to prevent Iranian overflights 
that deliver weapons to Hezbollah and the Assad regime in 
Syria.
    In order to stabilize Iraq, the Iraqi Government will need 
to be a more responsible actor in the region. Chairman Royce 
and I made that--emphasized that point when we met with Mr. 
Maliki several months ago.
    The discussion today is important to understand how we can 
encourage a political solution in Iraq that will give Sunnis a 
meaningful stake in the future of their country. This is the 
only viable way to build a safer future for Iraq while helping 
to curb Iranian influence and hopefully reducing the violence 
in Syria.
    I'd like to thank Deputy Assistant Secretary Brett McGurk, 
one of the foremost experts on Iraq, for being here today to 
address these issues with us.
    Mr. McGurk, I look forward to your testimony and our 
discussion. I yield back, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel. We'll hear for a 
minute from Ileana Ros-Lehtinen, chair of the Middle East 
Subcommittee, followed by Mr. Ted Deutch, who is the ranking 
member of that subcommittee.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chairman, and in 
addition to the biggest issue, which is that we don't have al-
Qaeda on the run, there are two issues which I continue to be 
very concerned about.
    First, is the safety of the residents of Camp Liberty. They 
still have very little protection. When last you testified, Mr. 
McGurk, 192 T-walls were up. Then the big progress supposedly 
is that 43 T-walls are now up in addition. This is out of 
17,500 T-walls. T-walls save lives. Put them up.
    Number two, the Iraqi Jewish archives--Ted Deutch and I and 
many other members are very concerned, don't want them to be 
shipped back. The Iraqi Government incorrectly states that 
these papers are theirs.
    That is not true and we hope that you continue to work on 
that and the bigger issue that brings us together is that, 
obviously, since the departure of our troops al-Qaeda's 
reemergence has caused Iraq to be--to take a very worrisome 
turn for the worse.
    We've sacrificed so much blood and treasure there to watch 
it descend into full sectarian violence and al-Qaeda's safe 
haven so we've got to rebuild our influence there.
    Thank you, Mr. Chairman, for calling this hearing.
    Chairman Royce. Thank you, Ms. Ros-Lehtinen.
    We'll go to Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman, and Ranking Member 
Engel for holding this extremely timely hearing.
    Emboldened by instability within Iraq's Government in the 
searing conflict, al-Qaeda affiliated--the number of al-Qaeda 
affiliated fighters in Iraq has now reached levels not seen 
since 2006.
    Al-Qaeda and Iraq's offshoot, the Islamic State of Iraq and 
Syria, is now the primary perpetrator of the worst violence, 
and as my colleagues have noted al-Qaeda has now disavowed the 
Islamic State of Iraq and Syria for its use of tactics deemed 
to be too violent.
    Let me say that again. Al-Qaeda, one of the world's worst 
and most brutal terrorist groups, has disowned this group for 
being too extreme. I fear the siege of Anbar and Fallujah in 
January has definitively turned the page from simply ladling 
this spillover from the Syrian conflict to a full scale 
resurgence of terror in Iraq.
    Various reports count the number killed in January at close 
to 1,000. I'm particularly concerned for the 140,000 who fled 
their homes as rockets were indiscriminately fired at needed 
humanitarian aid. The security risks posed by this resurgence 
are too great to ignore and, Deputy Assistant Secretary McGurk, 
I hope today you'll be able to shed light on what level of 
assistance we're providing the Iraqis and our comprehensive 
strategy to prevent the growth of the security threat.
    And I look forward to that testimony and I yield back, Mr. 
Chairman.
    Chairman Royce. Thank you. Thank you, Mr. Deutch.
    Now, lastly, we'll go to Judge Ted Poe of Texas, chairman 
of the Terrorism Subcommittee, followed by Brad Sherman for a 
minute of California, who's the ranking member of that 
subcommittee.
    Mr. Poe. Al-Qaeda in Iraq is back, certainly not on its 
last legs. The United States has paid a high price to help 
liberate Iraq from the menace of al-Qaeda.
    It's frustrating that al-Qaeda is gaining ground back in 
Iraq. Al-Qaeda's resurgence is directly related to Prime 
Minister Maliki's mishandling of his government. Incompetence 
and corruption seem to be the norm.
    He centralized power, alienated the Sunnis and brought back 
Shi'a hit squads. He has allowed Iranian-supported operatives 
to kill MEK Iranian dissidents now on seven occasions without 
consequences.
    The last time you were here, Mr. McGurk, you testified 
before my subcommittee and Ileana Ros-Lehtinen's subcommittee. 
I predicted that there would be another attack.
    Seven days after you testified in December, Camp Liberty 
was attacked again. All this chaos has created an environment 
ripe for al-Qaeda. Al-Qaeda is reestablishing a safe haven to 
plan and launch attacks outside the region.
    That is a totally unacceptable trend. The question is what 
is the United States going to do, and I yield back the 
remainder of my time. Thank you.
    Chairman Royce. Thank you. Mr. Sherman.
    Mr. Sherman. In the 1940s, we occupied countries. No one 
doubted our right to occupy. We took our time, we created new 
governments and those governments created new societies.
    At various other times we've invaded countries, achieved a 
limited military objective or as much as could be achieved at 
reasonable cost and we left. The first example of that was 
Thomas Jefferson's military intervention in Libya.
    In Iraq and Afghanistan, we established a bad example. The 
world and even some in the United States doubted our right to 
occupy so we hastily installed Karzai in Afghanistan and in 
Iraq we installed a structure which is now presided over by Mr. 
Maliki.
    It is not surprising that Afghanistan and Iraq continue to 
be problems since we have--we hastily handed over governance to 
those who are ill prepared. Iraq is not the most important Arab 
state strategically. It does not become more important in the 
future because we made a mistake in the past that cost us 
dearly in blood and treasure.
    We should not compound that mistake. On the other hand, 
Iraq is important in part because of its proximity to Iran, 
which I believe is one of the greatest threats to our national 
security.
    Finally, I agree with several of the prior speakers that we 
need to with regard to Camp Liberty and the T-walls, and I 
yield back.
    Chairman Royce. Thank you, Mr. Sherman.
    This morning we are pleased to be joined by Deputy 
Assistant Secretary for Iraq and Iran Mr. Brett McGurk. Prior 
to this current assignment, Mr. McGurk served as a special 
advisor to the national security staff and as senior advisor to 
Ambassadors Ryan Crocker, Chris Hill and James Jeffrey in 
Baghdad. He also served as a lead negotiator and coordinator 
during bilateral talks with the Iraqi Government back in 2008.
    Without objection, by the way, your full prepared statement 
will be made part of the record and the members here will have 
5 days to submit any statements or questions or any other 
extraneous material for the record.
    And Mr. McGurk, if you would please summarize your remarks 
and then we'll go to questions.

 STATEMENT OF MR. BRETT MCGURK, DEPUTY ASSISTANT SECRETARY FOR 
IRAQ AND IRAN, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Mr. McGurk. Thank you.
    Good morning, Chairman Royce, Ranking Member Engel and 
members of this committee. Thank you for inviting me to discuss 
the situation in Iraq with a focus on al-Qaeda's primary 
offshoot in Iraq, the Islamic State of Iraq and the Levant, or 
ISIL.
    My brief statement will discuss the threat from ISIL, the 
current situation in Ramadi and Fallujah and how we intend to 
help the Iraqis combat it.
    ISIL is well known to us. Its former incarnation, al-Qaeda 
in Iraq, or AQI, was the focus of U.S. and Iraqi security 
efforts over many years, beginning with the rise of its first 
leader, Abu Musab al-Zarqawi, more than a decade ago.
    Its current leader, Abu Bakr al-Baghdadi, is a designated 
global terrorist under U.S. law and we believe is currently 
based in Syria. His mission, as clearly stated in his own 
statements, is to carve out a zone of governing territory from 
Baghdad through Syria to Lebanon.
    The Syria conflict over the past 2 years provide a platform 
for ISIL to gain resources, recruits and safe havens. While the 
precise number of ISIL fighters in Syria is unknown, Director 
of National Intelligence James Clapper last week testified that 
there are likely 26,000 extremist fighters in Syria, including 
7,000 foreign fighters. Many of these fighters are affiliated 
with ISIL.
    ISIL in its earlier incarnation, AQI, inflicted mass 
casualties attacks in Iraq over the years 2011 and 2012. It was 
not until early last year that we began to see a significant 
increase in its attacks, most notably suicide and vehicle 
bombs.
    Suicide attacks, we assess, are nearly all attributable to 
ISIL and nearly all suicide bombers are foreign fighters who 
enter Iraq through Syria. To give one notable statistic, in 
November 2012 Iraq saw three suicide attacks throughout the 
country. In November 2013, it saw 50.
    ISIL is now striking in Iraq along three main lines of 
operations. First, it is attacking Shi'a civilian areas in an 
effort to rekindle a civil war. These are the vast majority of 
attacks.
    Second, it is attacking Sunni areas to eliminate rivals and 
govern territory. In one 30-day period between September and 
October, for example, ISIL suicide bombers attacked three small 
towns in Anbar Province.
    Third, ISIL is now attacking the Kurds in northern Iraq and 
disputed boundary areas to incite ethnic tension and rest. ISIL 
likely staged and planned many of these attacks at remote 
encampments in western Iraq. The Iraqis began to spot these 
camps late last summer but proved unable to target them 
effectively due to unarmored helicopters and the lack of other 
necessary CT equipment which is needed to deny terrorists safe 
haven.
    Today, thanks to close cooperation from this committee and 
the Congress, we've begun to address this problem, as I will 
discuss in more detail. By the end of last year, signature ISIL 
attacks, vehicle and suicide bombs matched levels not seen 
since the summer of 2007.
    Overall, violence remains far lower mainly because Shi'a 
militias have yet to respond en masse to ISIL provocations. But 
the risks of such reprisals rise as ISIL attacks rise. Also, 
over the course of 2013 political instability and continuous 
unrest in Sunni areas enabled but did not cause ISIL's rise.
    There was a protest movement that began after a number of 
bodyguards to former Minister of Finance Rafa al-Issawi were 
detained by Iraqi security forces. These protests placed on the 
national agenda a number of legitimate demands such as ending 
the process of de-Ba'athification and ensuring criminal due 
process.
    We supported these legitimate demands and we worked with 
all parties to shape a package of legislation to address them, 
which is now pending in the Iraqi Parliament. Ongoing violence, 
however, has made it difficult for Shi'a and Kurdish blocs to 
support this package of legislation absent concessions for 
their own constituencies.
    Over the course of the spring and into the summer, the 
protest movement became more militant with al-Qaeda flags 
spotted in protest squares. This accelerated a vicious cycle.
    ISIL exploited unaddressed grievances and increasing 
violence but long overdue reforms further out of reach. This 
brings us to where we are today and how we intend to help the 
Iraqis fight back.
    On January 1, 2014, convoys of up to 100 trucks with 
mounted heavy machine guns and anti-aircraft guns flying the 
black flag of al-Qaeda entered the central cities of Fallujah 
and Ramadi. They deployed to key objectives, destroyed most 
police stations and secured vital crossways. The police in both 
cities nearly disintegrated.
    The domination of these central cities was a culmination of 
ISIL's 2013 strategy to govern territory and establish 7th 
century Islamic rule. In Fallujah, days after seizing central 
areas, ISIL declared the city part of an Islamic caliphate.
    This message, however, is not popular in Anbar Province. In 
Ramadi, in the hours after ISIL arrived in force tribal leaders 
organized and asked for funds and arms from the central 
government to retake their streets.
    The government responded with money, weapons and assurances 
that tribal fighters would enjoy full benefits of any soldier 
in the Iraqi army.
    I have been to Iraq twice since the new year. In meetings 
with Prime Minister Maliki and other Iraqi leaders, I have 
pressed upon them the urgent necessity of mobilizing the 
population against ISIL.
    I have also discussed the situation directly with tribal 
and local leaders in Anbar Province. These coordinated efforts 
have begun to produce results. Fighting continues in Ramadi's 
outskirts but local leaders report that the central city is 
increasingly secure with tribal fighters working in 
coordination with local leaders.
    The Iraqi army has remained outside, helping where 
necessary to secure populated areas. The situation in Fallujah 
is more serious with hardened ISIL fighters and former 
insurgents in control of the streets. One week ago, ISIL 
fighters captured a group of Iraqi soldiers, paraded them 
around the city flying al-Qaeda's black flag and then executed 
them.
    Further complicating the situation, we assess that some 
tribes in and around Fallujah are supporting ISIL while others 
are fighting ISIL and many others remain on the fence. The 
hardened fighters inside the city are seeking to draw the army 
into a direct confrontation.
    Thus far, the army has not taken the bait, focusing its 
efforts on the outskirts and keeping tribal fighters in the 
lead. But make no mistake, the Government of Iraq, working in 
full coordination with local leaders and the local population, 
has a responsibility to secure Fallujah.
    Under the plan that is now being developed as explained to 
us by local and national leaders late last week, tribal 
fighters will lead this effort with the army in support when 
needed.
    The United States is prepared to offer advice, make 
recommendations and share lessons learned based on our deep 
experience in these areas. General Austin, in a visit to 
Baghdad last week, had a series of candid conversations with 
Iraqi officials and commanders about the importance of patience 
and planning.
    ISIL is also planning to consolidate control of Fallujah 
and move 30 miles east of Baghdad. In a rare audio statement, 
on January 21st ISIL's leader directed his fighters ``to be on 
the front lines against the Shi'a and march toward Baghdad.''
    Were there any doubt of potential risks for the United 
States, he added what he said was a direct message to the 
Americans: ``Soon we will be in direct confrontation so watch 
for us for we are with you watching.'' We take such threats 
seriously and through cooperation with this committee and the 
Congress we intend to help the Iraqis in their efforts to 
defeat ISIL over the long term. Here's how.
    First, we are pressing the national leadership in the 
highest possible levels to develop a holistic security 
political economic strategy to isolate extremists from the 
population. This means supporting local tribal fighters, 
incorporating those fighters into the security services and 
committing to April elections to be held on time.
    Second, we are supporting the Iraqi security forces through 
accelerated foreign military sales, training and information 
sharing. The Iraqis have now equipped Caravan aircraft, for 
example, to fire Hellfire missiles thereby denying ISIL safe 
haven in the western desert.
    Such assistance is offered pursuant to a holistic strategy 
and we've made clear to the Iraqis that security operations, 
while a necessary condition for defeating ISIL, are not 
sufficient.
    Third, we are actively encouraging an aggressive economic 
component to mobilize the Sunni population against ISIL. In the 
5 weeks since ISIL entered Ramadi and Fallujah, the GOI has 
allocated over $35 million to Anbar Province in assistance and 
payments to fighters.
    Throughout, our message to all Iraqi leaders is firm. 
Despite your differences across a host of issues, you must find 
a way to work together when it comes to ISIL, an organization 
that threatens all Iraqis.
    This is particularly true for Prime Minister Maliki who, as 
the head of state, must take extra measures to reach out to 
Sunni leaders and draw critical mass of the local population 
into the fight.
    I want to thank you again for allowing me to address this 
most important topic. I look forward to working closely with 
you in the months ahead to protect U.S. interests in Iraq and 
throughout the region and I look forward to your questions.
    Thank you.
    [The prepared statement of Mr. McGurk follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Thank you, Mr. McGurk.
    The first question I was going to ask you related to 
something that happened last summer. There were militant camps 
and training grounds spotted in western Iraq.
    So we could see this brewing, and yesterday we heard the 
CIA Director note before Congress that there are camps inside 
of both Iraq and Syria that are, in his words, used by al-Qaeda 
to develop capabilities that are applicable both in theater as 
well as beyond.
    So you noted that the Iraqi Government could spot these 
camps but did not have the ability to target effectively, 
leaving safe havens just miles from populated areas, in your 
words.
    If these al-Qaeda camps present a direct threat to our 
interests and the Iraqis can't deal with it, then why weren't 
we doing more against these camps?
    You know, how would this gap that the Iraqi capabilities 
obviously can't meet be closed? How could you effectively move 
on this?
    Mr. McGurk. Thank you, Mr. Chairman.
    Let me kind of walk through the last 4 or 5 months. Really, 
late last summer the Iraqis spotted some of these camps and 
they tried to target them. They flew Bell 104 helicopters out--
47 helicopters out there.
    The helicopters were shot up by PKC machine guns. They 
tried to send the army out there. The army was IED'd on the 
roads, which are heavily booby trapped. So it was pretty clear 
that despite a very strong Iraqi security force capability they 
were not able to target camps in these remote areas and their 
special forces also could not operate effectively in those 
areas.
    And that is when we began to accelerate some of our foreign 
military assistance programs and also information sharing to 
get a better intelligence picture. So two notable developments 
over recent months.
    First, the Iraqis have become very effective with the 
Hellfire missile strikes through their Caravan aircrafts and we 
are helping them in the find, fix and finish mission in which 
they're undertaking, and second, we believe, as we've had many 
discussions with this committee--many good discussions--that 
Apache helicopter platforms are really a critical platform for 
denying safe haven in these areas over the long term, and I 
want to thank this committee for helping us with that sale, 
which was recently approved.
    But this won't be immediate. It won't be until later this 
year that the first leased helicopters get into the country and 
are operational. But that is really a long-term solution to 
this problem.
    Chairman Royce. The other question I was going to ask you 
was in your testimony you called suicide bombers a key data 
point we track and noted that these suicide bombers operating 
in Iraq are in fact foreign fighters that have come in.
    Where are these foreign fighters coming from? We've seen 
reports that close to a 1,000 have come from Europe, some from 
the U.S. I was going to ask you how do you assess the threat to 
U.S. personnel, not only that threat to personnel and our 
interests in the region but also here in the United States.
    Mr. McGurk. Mr. Chairman, the foreign fighters in Syria are 
coming from all over the world. This is a problem we faced in 
the years 2006 to 2008 when foreign fighters were coming into 
Syria and also making their way into Iraq through what was then 
the al-Qaeda in Iraq network.
    They're coming mainly from the region. But we do assess 
from our best intelligence assessments that the suicide bombers 
are foreign fighters. Right now, they do not pose a direct 
threat to us or our personnel but they pose a direct threat to 
the stability of Iraq.
    The suicide bombers, and again, about five to 10 a month 
over 2011 and 2012, now about 30 to 40 a month, it has a 
pernicious effect on the political discourse in the country.
    Car bombs--the Iraqis have been able to protect against car 
bombs. You don't see mass casualty car bomb attacks like you 
used to see. There are still a lot of car bombs but casualties 
are lower.
    It's the suicide bombers that are able to get into 
funerals, mosques, populated areas and cause mass casualties, 
which has just a devastating effect on the country. So it's a 
very serious, serious problem and a regional problem.
    Chairman Royce. And the last question I'll ask in my 
remaining moments, you were just in Baghdad meeting with Iraqi 
officials and you state that you detected for the first time 
acknowledgment that Government of Iraq missteps may have made 
the problem worse, and as I noted in my statement this is not 
the feeling that Ranking Member Engel and I received when we 
raised this issue with the President of Iraq in our meeting. So 
that was a few months ago.
    I am somewhat encouraged by this but how encouraged should 
we be? Because our concern has long been that this lack of 
reconciliation is compounding the problem seriously.
    Mr. McGurk. I have found, frankly, Mr. Chairman, an 
attitude among the Iraqis that was similar to the tactics that 
we used in the early part of the war, that the security problem 
was simply a security problem and not a problem that was fused 
with politics and economics, and we had a series of 
conversations over the course of last year as the ISIL attacks 
increased in which Iraqis saw this mainly as a security 
problem.
    All I can say is that I've been there twice this month 
since the entry of ISIL into Fallujah and Ramadi and I have 
heard from across the board from the Prime Minister on down 
that unless you enlist local Sunnis in those areas you will 
never defeat and isolate ISIL.
    And we have seen that now manifested in a commitment. The 
Iraqi cabinet has passed a number of resolutions saying tribal 
fighters will be given full benefits of the state and, most 
significantly, Prime Minister Maliki has made a commitment that 
tribal fighters who oust ISIL from these areas will be 
incorporated into the formal security services of the state--
the police and the army.
    That did not happen with the Awakening fighters that we 
worked with in 2006 to 2008. So that is a very significant 
commitment. We now need to stay on the Iraqis to make sure they 
follow through.
    Chairman Royce. Thank you. We'll go to Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    Mr. McGurk, let me ask you about al-Qaeda in Iraq. It's 
been reported that al-Zawahiri, the head of al-Qaeda, has 
disowned the Islamic State of Iraq and Syria. So if that's 
true, what does that mean for al-Qaeda's presence in Iraq?
    What are the repercussions for ISIS operating without the 
al-Qaeda umbrella and how will this affect the rebel infighting 
in Syria now that al-Nusra has the blessing of al-Qaeda?
    Mr. McGurk. Well, ISIL and al-Nusra were both kind of--came 
out of al-Qaeda in Iraq. ISIL basically is al-Qaeda in Iraq. 
Its leader was the al-Qaeda in Iraq leader since 2010.
    Nusra was a bit of an offshoot and is focused more on 
Syria. As you said, there's now this message, which seems from 
Zawahiri, saying that ISIL is no longer affiliated with al-
Qaeda central.
    I would defer to my intelligence colleagues on the long-
term effects but what we have found is that ISIL has such a 
media presence, such a propaganda presence and is able to self-
sustain itself by controlling facilities in eastern Syria 
including oil facilities and also through extortion rackets in 
cities in western Iraq that it'll be able to maintain its cycle 
of operations.
    In terms of those who are recruited and come in to ISIL, 
it's really--their message, and it goes all the way back to 
Zarqawi 10 years ago, is just very perniciously sectarian, that 
Shi'a Muslims in particular simply don't have a right to live 
and they should be killed, and those who believe that tend to 
gravitate toward ISIL.
    Nusra is more of a al-Qaeda central-like message and also 
including a threat to us. But I think--despite this new 
statement we've seen I think ISIL is going to maintain its pace 
of operations and continue to be a very serious threat.
    Mr. Engel. Thank you.
    I'd like to ask you some questions about Iraq and Iran and 
the relationship. When I look back at the war in Iraq, what 
really breaks my heart is that we lost so many Americans, so 
much American blood, and now it's almost as if we didn't do 
anything.
    Nothing we did was positive. It's all been eroded, and it 
really just breaks my heart for people who lost loved ones 
there.
    We're the ones responsible, in my opinion, for making Iran 
the hegemonic power in the region because Iran and Iraq for 
years fought wars, checked each other and once we blew up--not 
that Saddam Hussein was worth anything but once we blew up the 
minority Sunni regime in Iraq and it seems to me it was only 
obvious that the Shi'as in Iraq would gravitate to the Shi'as 
in Iran, and the sad thing is that Iran has more influence, in 
my opinion, in Iraq now than we have.
    So there are reports, and Chairman Royce and I raised this 
with Mr. Maliki when he was in Washington, that Iraq is 
allowing Iran overflights as Iran seeks to arm Hezbollah. 
Hezbollah, obviously, is now fighting the war in Syria on 
Assad's side. It's helping Hezbollah expand its presence in 
Syria, defending the Assad regime.
    So can you characterize that relationship that Prime 
Minister Maliki and other senior Iraqi officials have with Iran 
and how would you describe Iraq's commitments to the U.S. on 
the overflight issue? Does Maliki understand how this 
destabilizes the region?
    Mr. McGurk. Iraq's relationship with Iran is multifaceted. 
We have found repeatedly over the years that Iraq acts 
primarily in its own interests.
    We found very few instances in which we've seen Iraq acting 
at the behest of Iran in which it did not see it acting in its 
own interests. You can look at that in terms of Iraq's overall 
oil production. You can look at it in terms of Iraq ratifying 
the additional protocol.
    You can look at it in terms of Iraq supporting the Geneva 1 
communique, a number of steps in which we know the Iranians 
were pressing the Iraqis not to do things and the Iraqis did 
them. The issue of overflights is something where the Iraqis 
have not done enough. We have seen the number of flights come 
down.
    We continue to press this issue. Inspections go up. 
Inspections go down. It's very frustrating. It's often very 
difficult for us to get a precise intelligence picture of 
specific flights and what's on a flight.
    We know that material, we believe, is coming on civilian 
aircraft. So it's just--it's a problem that we focus on all the 
time. It's the one area where I can say Iraq is simply not 
doing enough.
    Mr. Engel. I just--thank you. I just want to make one final 
comment and that it's--it was my opinion when the chairman and 
I met with Mr. Maliki that he was a good listener but I didn't 
think he provided too much in terms of answers to the questions 
we had, one of which was overflights.
    I think that he just came to listen but, really, didn't 
come to put his head together with us and help solve the 
problem.
    Mr. McGurk. I have found, Congressmen, that the--since the 
Prime Minister's trip that your meeting with him, other 
meetings he had here on the Hill, he spent about 2 hours with 
President Obama in the Oval Office, he got a very direct 
message on a number of issues and we have seen some fairly 
significant changes from that visit.
    So I want to thank you for the meeting you had with him. I 
think you made an influence. On some of the issues which I know 
were discussed with Camp Liberty we've seen some changes, and 
particularly in the need for a holistic strategy to defeat ISIL 
and enlisting the Sunnis into the fight at the local level we 
have seen some fairly dramatic and significant changes from 
that visit.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    We go now to Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Welcome once again, sir. The Iraqi Jewish archives--you 
have been engaged in discussions with the Iraqis on this issue 
and your staff has spoken to--with representatives of the Iraqi 
Jewish Diaspora and the Jewish community as a whole.
    But could you give us an update on progress of these 
discussions? Have there been alternative plans proposed? On the 
issue of the T-walls at Camp Liberty, why have there been only 
235 out of 17,500 T-walls put up and why have we only seen an 
addition of 43 since our November subcommittee hearing? Can you 
please commit that you will put extra effort in saving lives 
there?
    And then thirdly, as far as al-Qaeda's resurgence, a large 
part of this is due to the failure in the Iraqi Government and 
Iraqi leadership since we left the country. There are national 
elections planned in Iraq in April.
    We were successful after the surge in getting the Iraqi 
Government to participate in a more inclusive power sharing 
government that kind of mollified the Sunnis of Iraq and left 
al-Qaeda marginalized. Then after we left the Iraqis took 
another step backward.
    Now it was the Sunnis who were marginalized, drawing many 
of them toward al-Qaeda. What steps are we taking to ensure 
that the Sunnis are participating in these elections and that 
Iraq can return to that sort of power sharing government we saw 
in the post-surge Iraq?
    And continuing with the Shi'a-Sunni issue we've seen over 
the last few days that the Iraqi military has been bombarding 
Fallujah, which was taken over by al-Qaeda late last year, 
presumably preparing the way for a ground assault.
    However, the Shi'a-dominated Maliki government cannot 
successfully take Fallujah on its own without the help of the 
Sunni tribal leaders in the region. Can you describe the 
current--our relationship between the Maliki government and 
these tribal leaders and do you think Maliki will be able to 
gain their support, given Maliki's crackdown on Sunnis in Iraq 
for these past few years?
    Thank you, sir.
    Mr. McGurk. Thank you.
    Let me take the topics in order. On the Jewish archives, as 
you know this is a very sensitive topic. I've been working 
directly with the Iraqis on this. I was just in Iraq and raised 
it with those officials who are charged with the file. We are 
engaged in sensitive negotiations with the Iraqis.
    In the coming weeks, the director of Iraq's National 
Library and Archives will be coming to the United States and, 
again, I hope to report progress on this. But we're engaged and 
it's a sensitive negotiation but I will keep you fully informed 
of those talks.
    On Camp Liberty, on specifically on the issue T-walls, I 
have, again, made a number of trips to Iraq and every time I go 
from Maliki on down I raise the issue of T-walls. We got T-
walls moving back into the camp earlier this month. They 
stopped.
    I raised it again last Thursday with the Iraqi national 
security advisor. I understand this morning T-walls are moving 
into the camp again. I visited the survivors and residents at 
Camp Liberty earlier this month. I told them I promised I would 
do everything I could.
    I also urged them to do everything they could and that 
meant showing up at these camp management meetings where plans 
are made to move the T-walls into the camp. This is an issue 
I'm going to continue to stay on top of.
    On the issue of elections and Sunni participation, as I 
said in my testimony we are focused to holding elections on 
April 30th. This will be the third full term election for a 4-
year government, first one December 2005 and then 2010 and then 
this year.
    As you may know, the head of the main Sunni coalition, 
Osama al-Nujaifi, was in the United States 2 weeks ago. He had 
meetings with the President and the Vice President. He met the 
Secretary of State at his home.
    So we are very focused on making sure that the elections 
happen, that they produce a genuine and credible result and 
that they allow a government to reform that reflects the make-
up of Iraqi society with all represented.
    In Fallujah, as I described in my testimony the plan is to 
have the tribes out in front but with the army in support 
because this is--they face--ISIL is an army. They have heavy 
weapons. They have 50-caliber sniper rifles. They are very well 
trained and very well fortified.
    So we have to have the Sunnis, tribal local people out in 
front but they will require security support. And General 
Austin was in Iraq last week for direct talks with Iraqi 
military commanders. We are advising the commanders as best we 
can, building on the lessons that we learned in these areas for 
tactical and strategic patience, for planning and to make sure 
that civilian casualties are minimized.
    Ms. Ros-Lehtinen. Thank you so much.
    I know how hard you have been working, and to paraphrase 
Ambassador Crocker everything about Iraq is hard all the time. 
So please keep making progress.
    Thank you, sir.
    Chairman Royce. Mr. Sherman of California. Thank you.
    Mr. Sherman. There was bipartisan support for leaving a 
residual force in Iraq. That required a status of forces 
agreement with the Maliki government, and the status of forces 
agreement would have had to have included immunity for our 
soldiers so that they would not be subject to Iraqi courts.
    We ask our soldiers, Marines, airmen, et cetera, to take 
many risks. One of them we don't ask them to take is the idea 
that their actions would be held up to judgment in a court in 
Iraq or a court in Afghanistan, for that matter.
    We didn't get a status of forces agreement. One theory is 
the administration blew the negotiations. The other view is the 
Maliki government was in place when this administration got 
there. Maliki didn't have to give immunity to our troops and 
chose not to.
    We've seen that these immunity agreements are difficult for 
a host country to provide. Karzai isn't providing them and 
there are several elements of Iranian history going back 70 or 
80 years where the Shah was held up to great ridicule for 
providing such immunity agreements.
    Did we fail to get a status of forces agreement because we 
blew the negotiations or, given the political reality starting 
with Maliki, was there simply no way to get the immunity?
    Mr. McGurk. First, keying on the history is really 
important here. The history of immunity agreements, 
particularly in this region, is really what colors the entire 
debate.
    The negotiation in 2007 and 2008 took almost 18 months, and 
while we got those two agreements passed, the security 
agreement which allowed our forces to stay for 3 more years 
with immunities and a permanent strategic framework agreement 
they barely passed.
    They passed on the last possible day and almost by the skin 
of their teeth, and I was working on that issue with Ambassador 
Crocker for almost 18 months.
    Mr. Sherman. This is passing the Iraqi Parliament?
    Mr. McGurk. Yes, the Iraqi Parliament. Our legal 
requirements in 2011 were that another follow-on agreement 
would have to go through the Iraqi Parliament.
    It was the assessment of the Iraqi political leaders and 
also of our leadership that it was unlikely to pass and 
therefore the decision was made that our troops leave by the 
end of 2011.
    But we still have a permanent strategic framework 
agreement. That agreement has passed the Iraqi Parliament. It 
was ratified in 2008 and it provides us a strong basis for 
providing security assistance to the Iraqis.
    It does not provide us a basis for having boots on the 
ground and a training presence. But we do train Iraqi special 
forces under our Office of Security Cooperation through the 
Embassy and we're also in discussions with regional partners 
for having a training presence.
    Mr. Sherman. Okay. I want to move on to another question.
    Has there been discussion of the U.S. Air Force or other 
air force--naval air forces bombing these al-Qaeda camps rather 
than us providing huge amounts of weaponry to Maliki so that he 
can try to do it himself? And has there been discussion of U.S. 
Air Force's preventing overflights by the Iranians since the 
Iraqis say they can't control their own airspace?
    Mr. McGurk. No, there's not been discussion of a direct 
U.S. role in controlling Iraqi airspace or in targeting the 
camps. We're very focused on increasing the Iraqi capacity to 
be able to target camps and they've proven effective in recent 
months.
    Mr. Sherman. I would point out that if only we were bombing 
al-Qaeda camps before--the years before 9/11 we may have had a 
very different history.
    We see the residents of Camp Ashraf, 52 of them killed last 
September--in December, another four killed. The Secretary of 
State has appointed a special advisor on MEK resettlement.
    What is the status of protecting these folks while they're 
there and insisting that Iraq meet its legal obligations to do 
so and of finding homes outside the region for some of the 
residents?
    Mr. McGurk. Let me make a couple points. When I was here in 
November, I explained that there is a cell, we believe, trained 
by Iran and it is dedicated to attacking the MEK at Camp 
Liberty.
    We had cells trained by Iran dedicated to attacking us when 
we had a military presence in Iraq. We did everything we could 
to root those cells out and it was very difficult. We were 
never able to do so.
    So the only place that these people will be safe is outside 
of Iraq and that's why we are focused, as you said. Jonathan 
Weiner has been appointed to work this issue full time as a 
senior advisor for MEK resettlement to find a safe secure 
relocation for the residents of Camp Liberty.
    But while they're at Camp Liberty, the governor of Iraq has 
an obligation to do everything it can to keep them safe and 
that means T-walls and that means protection and that is 
something we raise constantly to make sure that they are 
getting as much protection as possible.
    You also mentioned some other notable developments and 
there's finally some real international tension to this urgent 
humanitarian crisis. First, there is a U.N.-created 
resettlement fund.
    We have notified Congress for $1 million to put into that 
resettlement fund. When I was in Iraq last week on Tuesday, the 
Iraqi cabinet authorized $500,000 to be allocated to that 
resettlement fund.
    The United Nations has also appointed Jane Holl Lute full 
time basis to focus on MEK resettlement. So we are getting some 
progress and I look forward to working with you and the 
committee and the Congress to try to move this forward in the 
coming weeks.
    Chairman Royce. We go now to Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman, and Secretary 
McGurk, thank you for your service and thank you for being here 
today. Just a few questions.
    You mentioned that on January 1st and reminded us 70 to 100 
trucks entered Fallujah and Ramadi. Was that a tactical 
surprise on the part of the ISIL or did we have intelligence 
that suggested they were mustering and that they were about to 
move or did the Iraqis have that intelligence, and if we did 
what was done with that?
    Secondly, you talked about how the suicide bombers in a 
turn of twisted logic has become the most precious resource 
and, ominously, you point out that in November 2012 there were 
three suicide bombings and that has gone up to 50.
    What is the glide scope on that? Is that continually 
expanding as--do we expect it to be 100 by November of next 
year or has that ebbed? If you could speak to that issue.
    Third, you point out that ISIS has set their sights on 
Baghdad in the south. You quote Abu Bakr al-Baghdadi on January 
21st. How seriously is that threat to Baghdad?
    Fourth, if you could, you point out the ISIL execution of 
Iraqi soldiers, that the Maliki soldiers did not take the 
bait--the army. But is that something that's ongoing? Are they 
executing police? Are they holding prisoners in center city 
Fallujah or the central part of it, I should say, of Fallujah?
    And then when it comes to the issue of Christians, the 
USCIRF report--the Commission of Religious Freedom points out 
that the Iraqi Government continues to tolerate systematic, 
ongoing and egregious religious freedom violations and that is 
against a number of the smaller sects, many of them going back 
2,000 years including the Chaldo-Assyrians.
    What is happening? What kind of pressure are we trying to 
put on that government to get them to mitigate and hopefully 
completely end their repression of Christians in Iraq?
    And finally, you talked about the low boil type of 
insurgency that this represents. Are we looking at the 
possibility of another Syria in Iraq?
    Mr. McGurk. Thank you, Congressman. Let me try to address 
these issues, first, in terms of the entry into Fallujah and 
Ramadi.
    We started to see, as the Iraqis started to hit some of the 
encampments, kind of moving around of the ISIL forces and 
trying to relocate. Their entre en masse on New Year's Day was 
a surprise.
    Again, I think it was a tactical mistake on ISIL's part. 
This isn't going to turn overnight but there has been a 
response. As I described in my testimony, in Ramadi the 
response developed fairly rapidly to actually expel them from 
the streets. In Fallujah, it's going to be far harder.
    But one thing that--the Sunnis in Anbar Province they may 
not like the government. They may not even trust the army. But 
they really don't like these foreign jihadist fighters.
    So we're trying to kind of gather common cause against 
them. In terms of the suicide bombers, the average now is about 
30 to 40 a week. I don't think this will be an exponential 
rise. I'm hoping that the--kind of 50 might be, you know, a 
cap.
    We saw this problem and phenomenon in the past and what we 
did in 2006 and 2008 was a very concerted regional wide 
effort--how do you get these people with a one-way ticket--then 
they're flying into Damascus--military-age males with a one-way 
to Damascus off the airplanes, and we were fairly effective 
actually at draining the flow, and one thing that drained the 
flow was increasing security in western Iraq. So we're going to 
try to recreate that strategy throughout the region.
    ISIL's strategy to attack the south--they are trying to 
attack the south. I would not be surprised if they're on the 
same play book from 2006. You may remember that after the 
election in December 2005 it was in late February that al-Qaeda 
in Iraq then attacked the Samarra mosque, which really kind of 
led to the sectarian violence which you saw for the next 2 
years.
    I think they are going to try to attack very high profile 
targets in the south, particularly religiously symbolic 
targets. I hope and I don't think they will be successful. I 
think the Iraqis have those areas pretty well protected. But 
it's definitely part of their strategy.
    In terms of Fallujah, yes, we do believe that Iraqi 
soldiers are being held in Fallujah and, as I said, these 
extremists are fighters. They're trying to goad the army into a 
direct urban confrontation.
    So far, despite some rhetoric you might see about storming 
Fallujah, that is not the strategy that is underway. But the 
government does have responsibility working with the local 
people to secure Fallujah and I think there will be--there will 
be fighting, particularly in the outskirts and then later in 
the central city.
    But we're going to try to make sure it is as contained as 
possible. And on Christians, a very good question. We're very 
focused on the plight of Christians in Iraq but also throughout 
the region.
    When Prime Minister Maliki was here he acknowledged in his 
public remarks the importance of taking care of the Christian 
community. In October, he met with Patriarch Sako, the head of 
the Chaldean Church.
    When I am in Iraq I try to meet with Christian leaders. I 
met with Archbishop Warda in Erbil a couple months ago and 
tried to focus on some of their land disputes they're having 
there. The Iraqi cabinet recently passed a resolution to talk 
about carving out a Christian province to allow them some 
autonomy and security.
    Again, this is something that we continue to develop. I'm 
going to be meeting with an Iraqi Christian leader tomorrow in 
my office. So we're very focused on it but it's an extremely, 
extremely difficult issue. Christians are threatened by these 
extremists as are Sunnis and everybody--Sunni, Shi'a, 
everybody.
    Chairman Royce. Thank you.
    Mr. Sires of New Jersey.
    Mr. Sires. Thank you, Mr. Chairman, and thank you for being 
here.
    You know, the ties between Iraq and Iran seems to be 
getting closer. They signed a defense--have a defense treaty 
that supposedly they put together.
    I am concerned that maybe the safety of people at Camp 
Liberty the Iraqis are not making the effort that they really 
need to secure these people. If I'm making an arms contract 
with--a treaty with Iran, why would I be so intent on the 
safety of these people?
    Just in December they keep firing rockets into this--into 
this camp. So how sure are you that they're making the best 
possible effort to bring security to this camp?
    Mr. McGurk. Congressman, the issue remains extremely, 
extremely difficult. There was a rocket attack in the camp 
earlier this month and I would just remind you there was a 
rocket attack at Camp Cropper, which is right near Camp Liberty 
which used to house our soldiers, and we took casualties as 
late as summer of 2011, and that's when we had about 70,000 
troops in the country trying to stop this kind of activity.
    It's very difficult to deter and to root out a well-trained 
team with rockets and that is why we're trying to move as much 
protection into the camp as possible. That's why I went to the 
camp myself--to see it, to meet with the residents and to try 
to assess the security and protection. It remains a very 
difficult issue.
    I'll be honest. The MEK doesn't like the Iraqi Government. 
The Iraqi Government doesn't like the MEK, and it's a very 
dynamic issue and all we got to do is stay on the MEK to do 
everything they can to cooperate, to move the residents to a 
safe and secure location and stay on the government.
    Every time I meet with the leaders of the government I 
mention this issue. Despite all the other issues they're 
dealing with, I mention it every single time and as I said, I 
just received a report this morning that T-walls are moving 
back into the camp and we're going to make sure that they 
continue to move back in the camp tomorrow, the next day and 
the day after.
    Mr. Sires. How concerned are you about the treaty between 
Iraq and Iran, this defense treaty, the arms going into Iraq?
    Mr. McGurk. The Iraqis have been pretty careful to draw a 
line in terms of security cooperation with Iran and so far 
they've kept that line fairly firm. So I've seen reports like 
that but I would not take it too seriously.
    Iraq has made--the Iraqis have made clear they want a long-
term institutional relationship with the United States and they 
want the United States to be the backbone of their military, 
and that's why they want platforms like an Apache helicopter 
system.
    When we sell a country an Apache helicopter we're not just 
giving them an attack helicopter. We're actually--we're buying 
a 30-year relationship in terms of training pilots, logistics, 
maintenance and that's why we feel it's so important.
    The F-16 program is the same. We want Iraq to have a long-
term institutional relationship military to military with the 
United States. In General Austin's visit to Iraq last week he, 
of course, knows the Iraqi commanders. They've led together in 
the streets and the fields of Baghdad and the outskirts and all 
throughout Iraq and they have very deep, deep relationships.
    And I was in those meetings and you cannot get a deeper 
relationship than people who have fought side by side, and that 
is something that we are going to continue to develop. You 
know, Maliki is the Prime Minister now. He might be the Prime 
Minister after the coming elections. He might not be.
    What we're focused on is building an institutional 
relationship with the Iraqi Government and the institutions--
the military, the Parliament, something that's going to last 
for many, many years.
    Mr. Sires. And the sale of Russian arms to Iraq, are you 
concerned about that at all--$4 billion, whatever it was?
    Mr. McGurk. Yes. I don't want Iraqis buying Russian 
hardware and, you know, but I have to be honest. Given the 
security situation there's a lot of strategic competitors in 
Baghdad showing up, knocking on the same doors we're knocking 
on and saying hey, we're here to sell you an attack helicopter, 
just write a check.
    We have a system through our foreign military sales system, 
which is a good system, it makes sure that the stuff arrives 
with a long-term institutional relationship, as I discussed. 
But it's slow and cumbersome.
    Earlier this month, I was in Saudi Arabia, Bahrain and 
other countries and there was a lot of, you know, complaints 
about our foreign military sales system is too slow. We hear 
the same thing from the Iraqis.
    But I want Iraq to buy U.S. equipment because that buys a 
long-term strategic relationship. So yes, you know, it's 
unfortunate that they bought the MI-35s from the Russians but 
on the other hand, you know, they kept telling us they were 
going to do it if we couldn't get them the Apaches fast enough.
    Mr. Sires. And there's no consideration to giving them 
drones, right? Selling drones to the Iraqis?
    Mr. McGurk. Well, we are selling them unmanned UAVs. Not 
armed drones but we're selling them----
    Mr. Sires. I meant armed.
    Mr. McGurk. Yes. No, armed drones is not under 
consideration.
    Mr. Sires. Okay. Thank you.
    Ms. Ros-Lehtinen. Thank you.
    We now turn to Mr. Rohrabacher for his questions.
    Mr. Rohrabacher. Thank you very much, and we're all 
impressed with your knowledge level you're able to do this and 
from your memory and we're impressed by that. I'm impressed by 
that. But that doesn't mean that I agree with your assessment.
    Let me just say that the idea that--we're talking about 
Camp Ashraf. It seems that fundamentally you're suggesting that 
our approach to try to stop the massacre--the ongoing massacre 
of the people at Camp Liberty that we basically have to go to 
the Maliki government and ask them and the problem is they're 
not providing enough security.
    The Maliki government is responsible for these deaths. I 
don't understand. The military, the Iraqi military, invaded 
Camp Ashraf and murdered people. These are the people under 
Maliki's command did that.
    They recently went into--the 50 that were so left at Camp 
Ashraf, tied their hands behind their back and shot them in the 
back of the head and it was Maliki's own military we know who 
did that.
    We know that the Camp Ashraf and these people were attacked 
numerous times by the Iraqi military. This isn't whether Maliki 
and his people are not protecting the MEK. This is a crime 
against humanity. These are unarmed refugees in which Maliki's 
own troops are murdering.
    We're not talking about, you know, rockets that we don't 
know where they come from. We're talking about actual--by the 
way, I would suggest that they probably know about those 
rockets as well.
    Maliki--let's make it very clear. As far as I'm concerned 
and as far as many people in Washington are concerned, Maliki 
is an accomplice to the murders that are going on, and as an 
accomplice we should not be treating him, begging him, to have 
a residual force of U.S. troops in order to help his regime.
    I don't understand why the United States feels like--we 
feel compelled to be part of all of this. Why do we feel 
compelled that we have to go in and be in the middle of a fight 
between people who are murdering each other? Thirty to 40 
suicide bombers a month? Thousands of people are losing their 
lives to this insanity.
    Why should the United States, tell me--this is my 
question--why does the United States feel that we need to 
become part of this insanity and does that not instead turn 
both of the parties against us?
    Mr. McGurk. Congressman, the suicide bomber phenomenon, it 
is complete insanity. I agree with you.
    When you look at Iraq and you look at the region and you 
define our interests, and I don't go with any leader and beg 
for anything but we protect and advance U.S. interests as we 
define them, and in Iraq, whether you like it or not, oil, al-
Qaeda, Iran, vital U.S. interests are at stake in Iraq. So we 
need to do what we can without putting U.S. personnel----
    Mr. Rohrabacher. Why shouldn't we let them kill each other? 
Let them kill each other. I'm sorry. If it means that we're 
going to spend our treasure and more of our blood--we've 
already spent thousands of lives of American soldiers.
    We've done enough, and I'm so happy that you now can report 
to us that your negotiations to provide a residual American 
military force in Iraq was not successful because I'm very 
happy that we don't have a bunch of American troops in the 
middle of that mess.
    And if we're not even--we are not even capable of letting 
Maliki know that we're holding him responsible for the murders 
in his own ranks, for the people--for the military that he 
commands to go into Camp Ashraf and Camp Liberty and murder 
unarmed refugees.
    This is a no-win situation for us. Both sides seem to be 
evil--both sides or all the sides. One last question. I've got 
30 seconds.
    Who is financing? You talked about 100 trucks and all of 
this equipment costs money. Bullets even cost money. AK-47s 
cost money. Rockets cost money. Who is paying for all of that, 
the mayhem on both sides of this fight?
    Mr. McGurk. Congressman, I defer to my intelligence 
colleagues for the specific funding. But we believe it's the 
whole source of funding but private funding from throughout the 
region funding the global jihadist movement which is now really 
based in Syria and the region.
    Mr. Rohrabacher. Is that the Saudis?
    Mr. McGurk. Again, I would have to defer to my intelligence 
colleagues for that sort of information. But a lot of it is 
private--you know, private funding.
    Mr. Rohrabacher. Private funds. Thank you very much.
    Chairman Royce. Mr. McGurk, while you're on the subject--
while we're on the subject, did you want to share any details 
in terms of the attack on Camp Ashraf and, in your judgment, 
who you believe was involved in that, since that was the 
question at hand?
    Mr. McGurk. Thank you, Mr. Chairman.
    I think the last time I was here I discussed what we know. 
We believe it was a militia. We believe the militia was trained 
by Iran and that's really the primary responsibility, and we 
have--since that very horrific attack we worked to get the 
survivors out of Camp Ashraf, which is about, you know, 40 
miles from the Iranian border, and onto Camp Liberty.
    Camp Liberty is not safe but it's safer. We have the U.N. 
in the camp every day monitoring the camp and, again, when I go 
to try to go to the camp and meet with the survivors and the 
residents there. So we're doing----
    Chairman Royce. And you're making efforts right now to 
relocate the survivors?
    Mr. McGurk. Absolutely. Yes.
    Chairman Royce. Okay. We're going to go now to Mr. Gerry 
Connolly from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome, Mr. 
McGurk.
    Couple of questions first. The authorization for the use of 
military force, the administration has indicated it would not 
oppose the repeal of that. Is the issue the timing with respect 
to, say, pending elections in Iraq? Might it disrupt things 
you're doing in Iraq if we were to do that now?
    Mr. McGurk. Congressman, I don't think there's much focus 
on that in Iraq so I don't think it would make much of a 
difference----
    Mr. Connolly. Okay.
    Mr. McGurk [continuing]. In terms of from the Iraqi 
perspective.
    Mr. Connolly. That's good to know. Okay.
    Elections in April still on schedule?
    Mr. McGurk. We--our team at the Embassy is talking every 
day to the United Nations assistant mission in Iraq and the 
Iraqi High Electoral Commission, which are planning elections, 
and the information I have received most recently is that 
elections do remain on track.
    We have tens of thousands of displaced families from Anbar 
Province. We have been assured by those planning the elections 
that displaced people will still be able to vote and the vote 
will count as if they were in their home province.
    So we are still confident the election will be held on 
April 30th and our consistent position and very firm position 
is that those elections have to be held on April 30th. There 
should not be a delay.
    Mr. Connolly. What a novel thought, allowing people to vote 
remotely--a thought here for the United States.
    But Fallujah--help us understand what happened. I mean, the 
United States has been involved now for 12 years. Billions and 
billions of dollars--we've reconstituted the Iraqi military. We 
have trained, you know, law enforcement forces.
    We spent our military's blood and treasure to gain a 
foothold, to gain Fallujah, and, you know, al-Qaeda's success 
or organization manages to occupy it. And if I understood your 
testimony correctly, we're now once again relying on tribal 
support to essentially dislodge the occupying forces in 
Fallujah.
    How in the world--isn't that an indictment of the 
investments we've made in the Iraqi military and its inability 
to hold its own territory secure?
    Mr. McGurk. The Iraqi military would have the numbers and 
the equipment to go into Fallujah tomorrow and clean out the 
streets. We believe that were they to do an assault like that 
that it would actually exacerbate the problem. So----
    Mr. Connolly. I guess--excuse me 1 second, Mr. McGurk.
    I don't mean--but before you get there, but how did it 
happen in the first place? How is it that the Iraqi Government 
was not able to secure something as symbolically important if 
not really important as Fallujah?
    Mr. McGurk. As I tried to explain in my testimony, there 
was a series of events throughout 2013 including a protest 
movement which kind of added to the political instability in 
the region, and in Fallujah in particular it is an area, as we 
know, any outsiders coming into Fallujah are resisted and that 
includes the Iraqi army, it included us and it includes, we 
hope now, these al-Qaeda extremists.
    You know, all I can say is we are where we are right now 
and we're helping the Iraqis develop a plan--they're developing 
a plan, one that will lead--I say tribal fighters. What we 
really mean is that the local people, local population who know 
the streets, who are able to actually identify the foreign 
elements and push them out.
    But right now in Fallujah, it's a mix of al-Qaeda, former 
insurgent groups and former Ba'athist networks who are in 
control of the streets there. It has always been a very 
difficult place and so it's just a very difficult territory to 
operate in.
    Mr. Connolly. The tribal support we're relying on or 
cooperating with what is their attitude toward the Maliki 
government? I mean, because doesn't some of that support and 
cooperation, isn't some of that a function of how they view the 
central government?
    Mr. McGurk. Yes. Certainly, there's tremendous mistrust in 
the area of Fallujah toward the central government. There's no 
question about that.
    Mr. Connolly. And does that impede our ability to try to 
dislodge the occupation forces in Fallujah?
    Mr. McGurk. It does. It makes it--it makes it harder. As I 
said, some tribes are actually working with the extremists. 
Some are now working to oust them and many others are on the 
fence, and that's why it's incumbent upon the central 
government through resources and through dialogue and 
communication to mobilize the population against them.
    And when we worked with the Awakening we did three things. 
We trusted them, we funded them but also significantly we 
protected them. They thought they were going to win.
    Sheikh Abdul Sattar, who was the head of the Awakening in 
the early days, we parked two M-1 tanks in front of his villa 
and he was still killed by a suicide bomber.
    So, you know, this is a very tough area and these are tough 
folks. But the tribal leaders need to know that they're going 
to be supported and they believe they're going to win, and 
that's why Maliki's commitment most recently to give tribal 
fighters all the benefits of an Iraqi soldier and to 
incorporate those fighters into the security structures of the 
state, meaning they'll have a livelihood going forward to 
protect their people, is a very significant commitment.
    It's one that's never been made before and we now need to 
make sure that we hold the government to it and follow through.
    Mr. Connolly. Thank you. Thank you, Mr. Chairman.
    Chairman Royce. Judge Ted Poe from Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    I want to talk about what you probably thought I would talk 
about today is the MEK. The last time you were here and you 
testified before my subcommittee and the chairwoman, Ileana 
Ros-Lehtinen's, subcommittee I made the statement that there 
would probably be more attacks on Camp Liberty and, 
unfortunately, I was correct. Camp Liberty was attacked again--
four people killed, seven injured. One young man lost both of 
his legs.
    Since 2009, there have been seven attacks on Camp Liberty 
or Camp Ashraf. During that time, 19 times members of the State 
Department have testified. Most of those or many of those were 
about Camp Liberty in addition to other things.
    In all those attacks, to my knowledge as of today, not one 
person has been captured or charged with any of those 
killings--not one, and they're still on the loose.
    As I alluded to in my testimony, I personally believe that 
the Maliki government is in cahoots with the Iranian Government 
to let Camp Liberty, Camp Ashraf be subject to attacks. These 
last attacks, from my understanding, were rockets came in that 
were three meters long, 40 of them.
    It seems impossible to me that a rogue Iranian militia 
could sneak those by anybody and then fire them over a period 
of time and cause this chaos and murder, and I bring this up 
for several reasons.
    One, it hadn't been resolved. But this has become very 
personal to people who live in my district. I represent people 
who are Iranian-Americans. They know these people that are 
being killed. They are family. They are friends. And they come 
and they visit and they tell us it's happened again, Judge Poe, 
with tears in their eyes.
    So it's become personal. Many of those people are sitting 
behind you and they come up here wanting help. That's all they 
want. The United States has, you know, said that we promised to 
help them.
    We've just--we no longer recognize them as a foreign 
terrorist organization. They just want their loved ones safe, 
safe first from the constant attacks by the--well, I believe 
the Iraqi and the Iranians working together, but long term they 
want to leave. They want to be in a safe country.
    Now, when you visited, and I commend you for going to visit 
the camp, did you see these--what looked like graves but they 
are really--what these are used for the people at Camp Liberty 
are in such fear of their lives they no longer stay in these 
trailer houses here.
    They have dug themselves what looks like a grave to hide in 
when the attacks come from the rockets and they dig these and 
they put sandbags around them and then they're ready for the 
next attack.
    They jump in these things. Some of them sleep in these 
things at night, even in the rain, to try to be safe--literally 
digging their own graves.
    This is--it seems to me this is a fairly tragic situation 
when people live like this in fear of where they are, whether 
it's the Iraqis, whether it's the Iranians or both. Were you 
able--did you see any of this when you were there, these--what 
they use as now foxholes to hide in from the rockets?
    Mr. McGurk. I didn't see that particular lane but I saw 
some of the bunkers in the--at the camp.
    Mr. Poe. Well, I'm sure you'll see it on your next visit. 
But, now, this is what they have resorted to for their own 
safety. I think that is an international human rights concern. 
It should be.
    The T-walls--you mentioned T-walls are coming. My 
understanding they hadn't gotten any T-walls today. Seventeen 
thousand of them were removed in a short period of time. Now 
they're wanting to put them back in slowly. It's a safety 
hazard.
    They just want these T-walls to be safe. They ought to move 
them in now. The other concern that I wanted to mention is the 
resettlement issue. They want to leave Iraq. We want them to 
leave. The Iraqis want them to leave.
    The Iranians want them to--I'm not so sure what the 
Iranians want. But the West constantly says because the United 
States has not taken any of these people we're not going to 
take them either. When the U.S. starts leading by example 
rather than just talking about removing these people then maybe 
we'll take them as well.
    Why haven't these folks been sent to other countries? Why 
haven't we taken some of them or all of them? That's my first 
question. And the second question is when you visited with the 
survivors of the Ashraf Camp attack, did they tell you who they 
believed was responsible for attacking them and killing their 
families and their friends? Those are the two questions I have.
    Mr. McGurk. Let me, first, say in terms of accountability, 
a Shi'a militia leader who took responsibility for the attacks 
openly and was on Iraqi television giving interviews, taking 
responsibility for attacking the camp. We thought it was 
ridiculous that this guy was walking the streets inciting 
people to attack the camp.
    He was arrested by Iraqi security forces and is detained 
and is being investigated. So that is something that happened 
in the last month. I agree with you that this is an 
international human rights concern.
    That is why, as I mentioned in my response earlier, I find 
it encouraging that there is now United Nations focus with the 
resettlement fund, a full time person at the United Nations to 
focus on this issue.
    And as you also correctly point out, very few countries 
around the world, despite the international human rights 
concern, have agreed to take the residents into their 
territory--Albania, Germany, a total of about 350. So we still 
have almost 2,900 people at the camp.
    This is an international human rights concern and it has to 
be treated with the utmost urgency. As you know, we are 
considering options to relocate and integrate camp residents in 
the United States, in close coordination with the White House 
Department of Homeland Security and other relevant agencies, 
and any eligible residents would have to be fully vetted, of 
course, under our standards by the Department of Homeland 
Security. That is something that we are actively, actively, 
actively considering, I can assure you.
    But we also, and I would encourage those who care about the 
residents as do we to lobby other capitals around the world, 
given that this is an international human rights concern, to 
take residents into their territory because so long as they are 
in Iraq they will not be safe.
    And you're right, four residents of the camp lost their 
lives, tragically, this month. Nine hundred Iraqis also lost 
their lives this month.
    Iraq is a very violent place and particularly the residents 
at Camp Liberty will not be safe until they leave and that is 
why we have a full time person working on it.
    We encourage the U.N. and they have now appointed a full 
time person to work on the problem and we have a U.N. 
resettlement fund to encourage other countries to take the 
residents in, and until they're out of Iraq they won't be safe.
    Chairman Royce. And now we go to Mr. Ted Deutch of Florida. 
Thank you.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. McGurk, thanks for being here. Thanks for your 
thoughtful testimony.
    Last year, we wrote a letter to the Prime Minister about 
the flight--the overflights of Iranian aircraft. There are 
reports that the number of overflights from Iran has increased, 
that these are flights that Iran sends to arm Hezbollah to 
expand their influence in Syria to defend the Assad regime even 
as it slaughters--continues to slaughter its own people.
    How do you characterize Prime Minister Maliki's 
relationship with Iran?
    Mr. McGurk. Let me say a couple words about Iran's 
nefarious role in Iraq.
    Just like al-Qaeda has exploited the grievances of the 
Sunni community, Iran is exploiting the fears and apprehensions 
of the Shi'a community as they are attacked by these al-Qaeda 
extremists.
    So it's a vicious cycle that Iran very much takes advantage 
of in their most extreme elements of that regime and the Quds 
Force.
    Maliki, and we discuss this with him all the time, you 
know, tries to balance all these many pressures that come at 
Baghdad from the region and from internal debates.
    He is under great pressure from his constituency, 
particularly among the Shi'a who continue to get attacked by 
these extremist groups. But so far we have seen the Iraqi 
Government resist the Iranian efforts to have a direct security 
role in Iraq.
    Iran still, we believe, controls certain militia groups in 
Iraq, although their activities are not nearly to the level 
that they were 4 or 5 years ago.
    Mr. Deutch. So they've resisted Iran's efforts to play a 
more significant role in Iraq but they've resisted the efforts 
of many of us here to convince them to play a more significant 
role in stopping these overflights. Why don't they do it?
    Mr. McGurk. Again, the overflights are something that--all 
I can say is we continue to raise the overflight issue. We 
believe some of this material, a lot of it, is coming on 
civilian flights.
    We do have certain agreements with the Iraqis, which we 
look forward to testing as soon as we have intelligence we're 
able to share with them in terms of actually catching a flight 
in the act. But we've not been able to test that yet. So----
    Mr. Deutch. I'm sorry. Say that again. You've--explain 
that.
    Mr. McGurk. Well, we have agreements with Iraq. It's very 
hard to get a precise intelligence picture in terms of what's 
coming on a flight and when. It's just very difficult.
    But when we do--and we've worked with countries around the 
region in similar circumstances--when we do we hope to be able 
to work with the Iraqis to be able to make sure that we're able 
to stop or deter that flight.
    Mr. Deutch. Right. Here's what I'm--here's what I'm trying 
to get at. It is difficult to identify what's on the planes. I 
understand that.
    Much of the frustration that I have on this issue is 
frustration generally with what's happening in Syria and the 
ongoing assertion by so many that it's hard.
    So much about Syria is hard, and it's difficult even as 
there are now more than 130,000 Syrians who have been 
slaughtered. So this is one very small area where it is 
difficult.
    Yet, do you believe that the Maliki government, that the 
Prime Minister discounts the suggestion that there are planes 
flying from Iran full of weapons that are flying over Iraq with 
those weapons to be delivered to Hezbollah, used to prop up 
Assad's regime and to kill the Syrian people?
    Mr. McGurk. Do I believe he believes that and knows it's 
actually happening?
    Mr. Deutch. Mm-hmm. Right.
    Mr. McGurk. I think we've given him enough information to 
provide a reasonable assurance.
    Mr. Deutch. Then when do we start--how do we test these? 
You said we need to start testing some of this. When are we 
going to start testing? How do we do that?
    How do we--this is--again, this is one very discrete and 
this--I'm just bringing in everything else that goes into Syria 
at the moment, which this committee had focused on extensively 
and will continue to focus on extensively.
    But with this one very discrete area, one very discrete 
point--that is, weapons from Iran to Hezbollah that fly over 
Iraq--it's one very discrete area where perhaps we can have 
some--play some greater role in making it even slightly more 
difficult for Hezbollah to help Assad as he murders his own 
people, slightly more difficult if our ally in Iraq plays a 
more constructive role.
    So how do we test that? How do we get--how do we make that 
happen?
    Mr. McGurk. First, I would be happy to come discuss in a 
different setting specifically some of the issues related to 
this topic.
    But I can just put you in the picture. When we have these 
conversations with Iraqi officials and leaders, as soon as you 
mention Syria what they talk about in Syria is the threat that 
is coming from Syria into Iraq and it's a very real threat, and 
that is, like, their primary threat perception coming from 
Syria.
    We explain that the reason the terrorist groups are 
entrenching in Syria is partially due to Assad who, as the 
Secretary said, is a terror magnet, and so long as the Assad 
regime is able to be strengthened this vicious cycle is going 
to go on. The Iraqis have signed up to Geneva 1 communique.
    They've done some things consistent with our efforts to try 
to put pressure on Assad, and on the overflight issue all I can 
say I've been in Iraq twice this month and has raised this 
issue specifically to get inspections increased again, and the 
next time I'm here I hope to report some progress.
    Mr. Deutch. Thank you very much, Mr. McGurk. Yield back.
    Chairman Royce. Mr. Deutch. We go now to Mr. George Holding 
of North Carolina.
    Mr. Holding. Thank you, Mr. Chairman.
    Mr. McGurk, I appreciate your level of knowledge and 
facility with the facts and your ability to communicate them.
    In numerous answers you detailed the support that Iran is 
giving to militias in Iraq and to al-Qaeda-related and 
successor al-Qaeda groups in Iraq who are propagating this 
violence and undoing, I think, a lot of the good work that we 
were able to do in Iraq.
    In addition to that, where the Maliki government may be 
able to disavow it and say that, you know, we're not supportive 
of what Iran is doing in Iraq on that level, there are other 
areas which are in contravention of the sanctions that we've 
placed on Iran such as in the energy area--the energy sector.
    You know, it's come to light that in the Basra Province, 
you know, Iran and Iraq are negotiating the building of a 
pipeline to supply gas into two new power plants there, this 
all in contravention, you know, of the sanctions.
    Are we putting Iraq on notice that this is in contravention 
to the sanctions and detrimental to what we perceive as our 
interest?
    Mr. McGurk. A very good question and this is also an 
ongoing topic of conversation. They share a 3,000-kilometer 
border so there is trade. There's cultural ties. It's 
impossible to stop everything.
    The Iraqis have been very conscious of trying to enforce--
make sure that they are working consistent with our sanctions. 
In fact, they have not paid Iran for arrears that they're owed 
for certain electricity payments because they believe that it 
might be sanctionable even though the banks in which they would 
pay are not sanctionable banks.
    So the Iraqis have tried to even go an extra mile in terms 
of a sanctionable--making sure that they are staying and 
keeping with our----
    Mr. Holding. And with regard to financial institutions, I 
mean, there's a great deal of evidence that, you know, the 
nature of the relationship between Iraqi financial institutions 
and Iranian financial institutions goes way beyond what would 
be permitted, you know, under the sanctions.
    Mr. McGurk. I have to--maybe I could follow up with you 
specifically on this because it's a very detailed topic. But 
Iraqi banks have cut off many transactions with Iranian banks 
simply due to reputational risk.
    Iraq has also increased its oil output while Iran has asked 
them not to do that because we've taken 1 million barrels of 
Iranian oil off the market.
    So, again, this is constant. But the pipeline you mentioned 
is concerning. If that pipeline goes forward that could indeed 
fall afoul of our sanctions.
    Mr. Holding. You know, considering the extreme, you know, 
detriment to our interests from this Iranian support of 
militant groups in Iraq, is there any part of the nuclear deal 
that the administration is currently negotiating that would 
address these issues to, you know, put it as a condition? You 
know, Iran you've got to stop doing this.
    Mr. McGurk. Congressman, the nuclear negotiation is focused 
solely on the nuclear proliferation issues but that does not 
mean that we are not also focused on----
    Mr. Holding. So we're not using any leverage or any of our 
capital in lifting the sanctions for the nuclear enrichment 
part of it to try to solve some of the other problems we're 
having in Iraq with Iran?
    Mr. McGurk. Given the existential threat that a nuclear-
armed Iran would pose to our interests in the region, we 
focused the nuclear negotiations specifically on the nuclear 
issue to try to get at that.
    Mr. Holding. As far as Iranian support of Hezbollah which, 
as you say, pointed out that you've given Maliki clear, clear 
evidence of, you know, what's going on as far as the 
overflights go and the supply of Hezbollah with Iranian 
weapons, is there any part in the nuclear negotiations that 
we're doing now with Iran which would address Iranian support 
of Hezbollah fighters in Syria?
    Mr. McGurk. Again, the nuclear negotiations are focussed on 
the nuclear proliferation issues specifically but that does not 
mean we don't deal with the other issues on parallel and 
separate tracks.
    Mr. Holding. But, again, we're not using any of the 
leverage that we have in the nuclear negotiations to try to 
address the situation we have with Hezbollah and Syria?
    Mr. McGurk. We're not discussing those through the nuclear 
channel, no.
    Mr. Holding. Okay. Thank you.
    Mr. Chairman, I yield back.
    Mr. Kinzinger. The gentleman yields back. Chair now 
recognizes Mr. Cicilline for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you, Mr. 
McGurk, for being here and for your insightful testimony this 
morning.
    As you can imagine, events in Iraq are particularly 
difficult to hear about in light of the heroic sacrifice of 
American heroes and the billions and billions of dollars of 
taxpayer money expended in this region of the world and you 
acknowledge that in your written testimony, and I thank you for 
that.
    I'd ask you to first speak a little bit to the difference 
of events in Ramadi and Fallujah. It seems as if the turnaround 
in Ramadi was quick and fairly effective and, obviously, that 
is not the case in Fallujah.
    Would you speak a little bit about why that is, the extent 
of the coordination between the tribal fighters and the Iraqi 
Government and resource allocations between these two cities 
and any other factors which are contributing to either 
different outcomes or different strategies?
    Mr. McGurk. I think Fallujah has always just been the most 
hardened--the most hardened part of the insurgency when we were 
fighting it and it's just--it's a different environment.
    If you look at the protest movement over 2013, the protests 
in Ramadi remained generally of a moderate tone focussed on the 
legitimate grievances of the community. The protests in 
Fallujah, which also took place every Friday, were far more 
militant, far more extremist.
    So it's just a different environment, just like many, you 
know, cities in different countries have different cultures and 
different attitudes.
    Mr. Cicilline. And if I could just follow up on Congressman 
Deutch's question, I think you said that most of the foreign 
fighters were Syrian. Is that right?
    Mr. McGurk. No, foreign fighters who come in to Syria. So 
from the greater region and global jihadist-minded people who 
come in to Syria to fight jihad and are----
    Mr. Cicilline. Are then coming into Iraq.
    Mr. McGurk [continuing]. Put into a suicide bomb track.
    Mr. Cicilline. And so would you speak a little more about 
what the relationship is between the Maliki government and 
President Maliki in particular and President Assad? And so do 
they understand that by allowing these flyovers and potentially 
strengthening or prolonging the Assad regime they actually are 
undermining their ability to take back their own country from 
these same extremists.
    I mean, do they make that connection? What is the 
relationship between the Maliki administration--Maliki regime 
and the Assad regime?
    Mr. McGurk. Maliki and the top leaders of the Iraqi 
Government, there's no love lost with Bashar al-Assad. If you 
look at 2009, Maliki was calling for Assad to be brought to a 
criminal court at the time based upon some bombings which 
happened in August 2009 that the Iraqi Government blamed on the 
Syrian regime. Again, they've signed on to the Geneve 
communique which prefaces that there will be a transition 
without Bashar al-Assad.
    I'll be perfectly candid. When we explained to them that 
Bashar al-Assad remaining in power is a magnet for jihadis and 
terrorists who are coming into Iraq that is a train of logic 
that many Iraqi officials don't agree with, frankly. They 
believe that if Assad left that the regime would collapse and 
make the problem worse.
    So this is a constant--you know, just seeing the same 
picture we do they don't see it but we believe very strongly, 
as the Secretary has said a number of times, and the President 
that Bashar al-Assad in power is a magnet for these foreign 
fighters coming into Syria to fight a jihad.
    And until he is removed from power, we're going to continue 
to be in this very vicious cycle which is going to have 
pernicious effects on all of Syria's neighbors--Iraq, Lebanon 
and Jordan, in particular.
    Mr. Cicilline. But, I mean, what other tools do we have at 
our disposal to persuade the Maliki government that that is the 
case? Because otherwise we're going to be left in a position 
where they're going to continue to implicitly or explicitly 
support the Assad regime in the context of flyovers or other 
efforts.
    Mr. McGurk. I think--you know, I just have to be really 
candid. I think over the next--particularly heading up to the 
election, Iraqis are going to be increasingly focused inward on 
their internal issues and internal politics and our hope is 
that after those elections with a new government up we will 
work with that government to really get at this problem.
    Mr. Cicilline. And which leads to my final question. That 
is, is it clear to President Maliki and to the Iraqi leaders in 
general that the responsibility to defend their country is 
their responsibility and that their expectation should not be 
that the United States is going to fulfill that responsibility, 
that they have to--after a very long commitment from this 
country they have to take this responsibility of defending 
their country and doing the hard work of bringing stability and 
peace to their own country?
    Mr. McGurk. Absolutely, and when General Austin was in Iraq 
last week, and I was in those meetings with him and Iraqi 
leaders, they all stressed four or five points.
    First, they want all of our support to be under the 
strategic framework agreement, which is a permanent foundation. 
That means institutional, military to military. They want 
training support and we're talking about doing some training in 
Jordan or in the region.
    They want intelligence support and they want to let us know 
when they feel that they need weapons or systems that we can 
help them supply. So that is what they want, and they also want 
advice and recommendations for how to actually plan 
effectively. They do not want us to be in the lead in this 
fight. It's their fight.
    Mr. Cicilline. Thank you. I yield back. Thank you, Mr. 
Chairman.
    Mr. Kinzinger. Gentleman from Rhode Island yields back.
    Chair recognizes himself for 5 minutes.
    Mr. McGurk, thank you for coming in. We really appreciate 
it. I appreciate your service to your country and dealing with 
these very tough issues.
    I'm, obviously, not very happy with what's happening in 
Iraq and I've been very clear that I thought the withdrawal 
from Iraq was one of the biggest mistakes, I think, 
historically that'll be shown that the United States has made 
in modern foreign policy.
    So I'm going to express a lot of concern with that. It's 
not necessarily directed at you but it is directed at the 
decision by the administration.
    I'm a Air Force pilot and I served in Iraq a number of 
times and I remember specifically going there in 2008 and 
still, you know, watching the environment and seeing people 
hunker down, in essence, as there was still a threat of 
terrorism but they were starting to emerge.
    And I then I remember going in 2009 and seeing an Iraq that 
had completely turned around and actually as, you know, 
somebody there thinking hey, you know, we're serving a purpose 
here--we've brought freedom to people, kids are out playing 
soccer.
    Even though most of our operations in some cases were 
directed against Iranian assets Iran is now--is known to be 
responsible for directly or indirectly the death of about half 
of the Americans in Iraq, including EFPs. And by the way, I 
might want to mention that we are now negotiating with Iran in 
terms of giving them their ability to enrich uranium.
    I'll tell you another concern I had is I remember I was 
actually getting ready to fly a mission into Afghanistan back a 
few years ago when I heard the Senate majority leader from the 
other side of this building say that the war in Iraq was lost, 
and he still has his powerful position but he very quickly said 
that the war in Iraq is lost and it's time to withdraw all the 
troops.
    And then President Bush made what I think is a very brave 
decision to not only not withdraw but to actually surge more 
troops and then we saw a great deal of success.
    I think the reason it's important to revisit these 
decisions is not beating a dead horse but it's the fact that 
we're getting ready to face the same kind of decision in 
Afghanistan.
    Are we a country tired of war and we're going to pull out 
and have to deal with this shameful thing that we've seen in 
Fallujah, the equivalent of that in Afghanistan now, or are we 
going to learn lessons from the past? And I think it's very 
important to learn those lessons.
    I've got a question--a couple of quick questions. There 
used to be a policy in this country that anywhere al-Qaeda 
exists they should know that there's no safe haven. I think 
President Bush talked about that there's no safe haven for 
terrorists anywhere in the country.
    We see in Iraq right now they in essence appear to be 
somewhat safe. Hopefully, the Iraqi Government can push against 
them. We see the same type of situation in Syria and I'm for 
intervention in Syria. I want to be very clear about that.
    Has this--does this--is this a change in the administration 
from the Bush policy of no safe haven anywhere in the world and 
now we accept safe havens in Iraq because we just lost the 
political will to do anything or is it still kind of the Bush 
policy of no safe haven for al-Qaeda?
    Mr. McGurk. First, Congressman, thank you for your service 
and I think particularly now everybody who served in Iraq and 
has experience there it's really time for us to have a constant 
ongoing dialogue because we can all bring our experience and 
relationships to bear at this very important moment.
    Again, I can just speak to Iraq and in working with the 
Iraqis in terms of intelligence support and Hellfires and, as I 
mentioned in my testimony, we are confident that Iraq will deny 
al-Qaeda safe havens in western Iraq.
    One of the reasons we believe we saw the convoys moving 
into Fallujah and Ramadi is because the Iraqis started hitting 
their camps and safe havens in the remote regions of western 
Iraq.
    So I am confident, particularly as the Hellfire missiles 
and they develop even more sophisticated ability to deploy them 
and also with the Apache helicopters and with the other things 
we're able to do with our Iraqi partners, that al-Qaeda will 
not have safe havens to plan and plot in those areas and that's 
one reason, though, they're moving into urban areas because 
it's harder to root them out of those areas.
    Mr. Kinzinger. Thank you, and I'd like to say too I have 
called for and believe that the United States should help the 
Iraqi Government in a limited way using air power--American air 
power to take out these safe havens because this Congress, this 
House, has passed a use of force agreement that says attack, 
basically, al-Qaeda and so I think we have the authority and we 
have the responsibility to do that.
    Let me ask you one more brief question. Israel foiled and 
dismantled what the Israeli officials describe as an advanced 
al-Qaeda plot within their borders.
    There's kind of this far war grand strategy with al-Qaeda 
and a near war grand strategy. The near war is co-opting, for 
instance, Iraq--you know, all those places.
    The far war would be a threat to the U.S. homeland. Do you 
believe that the situation we're seeing in--and that it's the 
goal of AQI to be part of a far war strategy, a.k.a. an attack 
on the American homeland eventually?
    Mr. McGurk. Again, my file is Iraq so I'm focused on Iraq. 
I would just----
    Mr. Kinzinger. But, obviously, Iraq has huge implications 
for the homeland?
    Mr. McGurk. Again, I think al-Qaeda is a real threat. If 
they're able to entrench in the heart of the Arab world it'll 
threaten our interests throughout--vital U.S. interests 
throughout the region.
    Mr. Kinzinger. All right. Thank you. And, again, thank you 
for your service to your country. I appreciate that.
    Chair now recognizes Mr. Vargas for 5 minutes.
    Mr. Vargas. Thank you very much, Mr. Chair. Appreciate it.
    You know, I think for most Americans trying to keep score 
at home it's becoming very difficult to understand the 
situation.
    I think a lot of the nations there become somewhat confused 
and complex. I mean, Iraq, Iran, Syria--it's all kind of 
running together and the issue of the Sunni-Shi'a discord and 
what's happening there.
    But what is very, very clear, I think, is the terrible 
price that Americans have paid. As you know very well and, 
again, thank you for your service, I mean, the amount of sons 
and daughters that didn't come home alive, the number of 
parents--mothers and fathers that didn't come home alive and 
those that did that brought the demons home with them that will 
haunt them and their families for the rest of their lives, I 
mean, we've paid a terrible price.
    And so, I mean, today I heard even from some on the other 
side they were saying, you know, to hell with it. Let them kill 
themselves. You know, let them just fight it out--what should 
we be doing there. I don't hold that same feeling.
    I think that, you know, the price that we paid has to mean 
something and the sacrifice that these people made, our 
brothers, our sisters and our country and the price that they 
paid has to mean something at the end of the day and we should 
do as much as we can.
    I mean, I personally am very concerned about the Christian 
community. You know, the Christian community has been 
slaughtered. I mean, the Christians that we saw killed on 
Christmas--you know, very unified attacks against Christians, 
37 murdered. The Chaldean community before the war was about 1 
million Chaldean Christians.
    Now, I think, there's less than half, maybe even a third of 
that. We're very thankful in San Diego that many Chaldeans have 
been able to come to San Diego and a great community that's 
forming there and continues to form.
    But I'd like to hear from you what we can do and what we 
should do and what we're not doing to help not only the 
Christian community but especially the Christian community but 
other communities as well. I mean, what else should we be 
doing?
    Mr. McGurk. Congressman, thank you.
    I've visited the Chaldean community in Michigan and I would 
welcome the opportunity to come to your district also to visit 
the community there.
    Mr. Vargas. You're invited, then. Love to have you.
    Mr. McGurk. And these extremist groups, as I mentioned, are 
threatening Christians, Muslims, everybody in the region. It is 
a phenomenon throughout the region that is a regional problem, 
and one thing we're trying to do is work with the Christian 
leaders in Iraq to make sure that they have the resources they 
need from the central government and also the Kurdish regional 
government and making sure that their areas are as secure as 
possible.
    In Iraq, the Chaldeans and other Christian minority groups 
are located in the Nineveh Plains. There is an al-Qaeda 
extremist presence south of there.
    We are working to try to make sure that local people, 
Christians in that community, have the resources to protect 
themselves and to police their own communities and we've made 
some progress in that area over the last 6 months.
    In the north in Erbil and the Kurdish region, when I was in 
Iraq a few months ago and I met, as I mentioned earlier, with 
Archbishop Warda--the head of the community there--and linked 
him up with the Prime Minister of the Kurdish region to talk 
about schools for the community and making sure that they're 
getting the resources they need from the Kurdish regional 
government.
    So what we can do as a neutral player in Iraq with 
relationships between everybody, because we've been there for 
10 years and we're seen as a neutral player--one of the very 
few--is try to make sure that the connections are made between 
the governments--provincial, regional and national--so that the 
Christian and minority communities have the resources they need 
to protect themselves but also for schools and for children and 
everything else.
    Mr. Vargas. Now, I do have to say, though, I've heard from 
many that the central government--they claim that the central 
government is not doing much at all to help the Christians. In 
fact, just the opposite--that they leave them exposed, that 
their churches are exposed, that the schools are exposed.
    I mean, could you comment on that, that they haven't been 
doing enough and not nearly enough to protect the Christian 
community and especially the churches?
    Mr. McGurk. Since a series of church bombings, if I recall 
correctly in 2009 or 2010, the Iraqis have really buttressed 
the protection of Christian sites in Iraq. But as you 
mentioned, there are still attacks on these sites.
    Mr. Vargas. The Christmas attacks, I believe, killed 37 
Christians.
    Mr. McGurk. That's right, and I have found the Prime 
Minister, when you discuss this issue with him, fairly 
emotional about it, wanting to protect Christians, just like 
everyone else in his country and looking for ways to do that.
    But it's something that, again, we're going to have to keep 
focusing on. But I think the more communication the better from 
the Christian community--Iraqi Christian community here in the 
U.S. who have deep ties back into Iraq and with us.
    There's a lot that, if your constituencies tell you 
something they're seeing and you can let us know we can--we can 
work those problems.
    Mr. Vargas. Thank you.
    I yield back. Thank you, sir.
    Mr. Kinzinger. Thank you, Mr. Vargas.
    Chair recognizes Mr. Yoho for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman.
    Mr. McGurk, thank you for your testimony. I feel like 
you've been sitting there a long time. You might need to get up 
and stretch. But I appreciate your endurance.
    What are our military assets in Iraq and are they purely 
advisory and, if so, how many? Can you divulge that or----
    Mr. McGurk. We have, under our Embassy--under the chief of 
mission and Ambassador Beecroft, the Office of Security 
Cooperation which works very closely with the Iraqi military.
    The numbers ebb and flow but it's about 100 personnel and 
they do everything from advising to running the FMS programs to 
making sure that that is running efficiently, and a very small 
contingent of half a dozen or so of our special operators who 
train some of the higher end special operators as a training 
component. That's all done under the Embassy chief of mission 
and the Office of Security Cooperation.
    Mr. Yoho. All right. So we have a very small footprint as 
far as----
    Mr. McGurk. Yes.
    Mr. Yoho [continuing]. Americans there. What can be learned 
from how we left Iraq and applied to the draw down in 
Afghanistan so we don't make the same mistakes or repeat what 
we've done there so that we've got the benefit of the effort we 
put in there, you know, that both sides benefit from this?
    What do you see that we need to do different? If you could 
write--rewrite a post draw down of troops in Iraq, especially 
with the announcement which I think was wrong, of the end date 
announced, what would you do differently so that we don't 
repeat that in Afghanistan?
    Mr. McGurk. I think, Congressman, you'll have to forgive 
me. I think I'm--when I'm out of government I might look back 
and work with historians on the history or also make 
comparisons to Afghanistan. But right now, I'm focused on the 
situation at hand and trying to protect our interests as we 
face right now.
    Mr. Yoho. All right. Let me switch over to a different 
topic.
    I've talked to many veterans that have fought both in Iraq 
and Afghanistan and we've talked to members of the Iraqi 
Government, and what they have said is that we have come to a 
stalemate between the Iraqi military or the Iraqi men and our 
military and a stand-off. In the meantime, countries like 
China, Japan, South Korea are going in there, building 
infrastructures and trading.
    Would it not benefit us to put more effort into that so 
that we do have economic trade and that way we can help them 
build an economy where they own more of trying to solve this 
problem?
    I know they're--I know they're working hard on it but if we 
can help build that infrastructure and work with developing 
trade.
    Mr. McGurk. I agree with you 100 percent, and while the 
focus of this hearing has been the al-Qaeda threat and the 
rising extremist threat our policy, as I discussed last time, 
is really multifaceted and one of them is developing economic 
ties and economic relationships.
    We do advocacy for U.S. companies. We are proud that Boeing 
has signed a major contract with Iraqi Airways to be the 
backbone of the--of Iraqi Airways.
    We're proud that Hill International Company, a U.S. 
company, has contracted with the provincial government of Basra 
to lead the effort there to try to modernize Basra in a very 
long-term 5- to 10-year project. I can go through a number of 
companies--General Electric and others who are doing very well 
in Iraq.
    But I agree with you, we need to get the private sector 
involved and invested in Iraq and there are a lot of 
opportunities, particularly in parts of the country that are 
very secure.
    Mr. Yoho. That's where I'd like to, you know, help focus 
our foreign policy and that's why I was asking you if you could 
rewrite that.
    With Fallujah, do you think the Iraqi Government can 
control Fallujah and defeat the ISIL? Do you feel like they can 
go in there, they have the willpower or the assets to do that?
    Mr. McGurk. As I said in my testimony, I think without the 
support of the local population it'll be extremely difficult. 
That's a lesson that we learned in Iraq.
    Mr. Yoho. All right. What about with--you were talking 
about the backbone--U.S. is the backbone of the Iraqi military. 
Were you meaning with our military assets?
    Mr. McGurk. With equipment and training the Iraqis 
consistently look to us to be their primary supplier and 
primary supporter.
    Mr. Yoho. Okay. And then Chairman Royce was asking about 
where the foreign fighters were coming from and I know a lot of 
them are coming from Europe. Is there any estimate how many are 
coming from the U.S. that go into Syria, then go over to Iraq?
    Mr. McGurk. I don't have those numbers. I'd have to get--
I'd have to go to the intelligence community and get back to 
you with those numbers.
    Mr. Yoho. All right. Thank you.
    Mr. Chairman, I yield back. Thank you.
    Chairman Royce. Thank you, Mr. Yoho.
    We go now to Mr. Collins of Georgia--Doug Collins of 
Georgia.
    Mr. Collins. Thank you, Mr. Chairman. I appreciate the 
opportunity and thanks for answering a multitude of questions.
    I want to turn back a little bit that was asked earlier 
about the elections and, really, from serving in Iraq and back 
in '08, as my colleague has as well, the understanding of the 
relationship between the Sunni and Shi'a is something that is--
I think there's a huge mistrust that goes back generations. 
There's a multitude of issues there, and it looks like the 
current government has done very little to really relate with 
that or work on that relationship.
    Experts in Iraq have talked about al-Qaeda in Iraq, Islamic 
State of Iraq some and increasingly building the alliances with 
Sunni tribal leaders, and has adjusted its message in 2013 to 
try and win more Sunni political support. How would that 
translate into the next round of Iraq elections?
    Can we see--really see a move from Shi'a to Sunni and what 
does that mean for the region, and then answer that and then I 
want to talk about Iran's possible influence there as well. And 
I want to--just speak to the elections at this point.
    Mr. McGurk. Thank you. First, Congressman, thank you for 
your service and it's a very important question--an insightful 
question.
    This election coming up is going to be pivotal and also 
extremely interesting. The first national election in December 
2005 there were really three main lists people could vote for. 
There was a Shi'a bloc, a Sunni bloc and a Kurdish bloc.
    The 2010 elections there was a little bit more choice, 
really--two Shi'a blocs, the Sunni parties were under one main 
list also with some Shi'as, kind of a cross sectarian list, and 
then the Kurds.
    This election everything is really fractured so you have 
about four Shi'a lists, you have three Sunni lists and even the 
Kurds are running on four different lists. So what's going to 
happen out of those results are going to be a number of 
different permutations in terms of forming governments and 
forming coalitions.
    So the hope is that this election will give rise to the 
more possibility of cross sectarian kind of issue-based 
politics emerging. As difficult as that is going to be, if you 
look at the candidate list and the coalitions there is that 
possibility there.
    But as I mentioned earlier, what al-Qaeda does very 
effectively is targets the fault line which has existed for 
1,400 years, targeting symbolic areas and trying to increase 
fear in particularly the Shi'a population, which just rises the 
sectarian debate and discourse in the country.
    So on the positive side, you have an election that's 
shaping up with a number of different choices, kind of number 
of different lists which will allow for cross sectarian 
coalitions. On the negative side, you have extremists who are 
trying to incite and inflame the sectarian dimensions in the 
country.
    Mr. Collins. And I think that's sort of what we're heading 
in here and looking at, especially with the Iran influence in 
Iraq, the Shi'a population, and Iran's influence in one is what 
we're seeing there.
    There's also the reports that, you know, I've read and 
others with dealing with the rest of the Arab world--Sunni Arab 
world--having to deal with this dynamic of Iran and Iraq and 
what's going on there.
    Do you see or is there a sense that there is more push in 
the Shi'a with the Iran influence there and especially with 
everything else we've talked about here? Not encouraging 
discourse maybe is the best way to put it.
    Mr. McGurk. Yeah. We've seen--if I could say, you know, 
2011 and 2012, and I described in my written testimony this 
kind of low boil stage of insurgency, Shi'a militias and the 
most maligned Iranian influence were unable to really gain much 
traction because the violence was at this low boil.
    As the al-Qaeda attacks went up this year, we've seen an 
increase in Shi'a militia activity, which has also given an 
inroad to the most nefarious Iranian activities.
    So this is something that we continue to have to work with 
Iraqi not only political leaders but civil society leaders and 
everybody to try to isolate those most extreme groups.
    Mr. Collins. And I appreciate it because I think and, 
really, what we look at and it's been mentioned, you know, 
several times here is we look at the world of Iraq right now 
and the issues of Fallujah and the Anbar region and then the 
price that we paid in those areas that are continuing.
    We've got to maintain pressure on this administration in 
Iraq, whether it would be the protection of those that are at 
Camp Liberty to Ashraf, the other things. This is not something 
that this congressman is going to let go.
    We got to continue this process. We owe that, in a large 
sense, to what happened there. So I think, really, in these 
elections that's the concern that I would express to Maliki is 
you've got to do the process of working to sustain your own 
country without the division and I think that's what we're 
expecting.
    When we see stuff like what happened at Fallujah, when we 
see this action it tells me that maybe we're spending too much 
time doing other things and not doing the things that will keep 
that country, you know, on a path toward a sustainable future.
    So I appreciate, and with that, Mr. Chairman, I yield back.
    Chairman Royce. Thank you. Thank you, Mr. Collins.
    We go now to Mr. Weber--Randy Weber of Texas.
    Mr. Weber. Thank you.
    Mr. McGurk, you were last here in November. There's 
something--I think it's been 78 days as we count and with Iran 
fostering all of the unrest over in Iraq there's been 312 
executions. If you divide that out it's one every 6 hours. It 
is four a day, 120 a month, hence, the 312 in 78 days.
    It's been 78 days since you were here. We have a regime in 
Iran that is built on sending terror throughout its own 
citizenry and, of course, exporting it into Iraq. How many more 
executions do you think is acceptable before we take the 
Iranian regime to task over their executing their own citizens?
    Mr. McGurk. I can address that from the Iran standpoint. 
Again, the human rights situation in Iran is quite despicable.
    We have seen President Rouhani and Foreign Minister Sharif 
talk about wanting to make inroads and improve the human rights 
situation but, quite frankly, we have yet to see them make 
inroads in that area.
    Mr. Weber. So really, I mean, we need to be--we need to 
really be focused on this, even in our negotiations with or, I 
should say, the administration's negotiations over relaxing the 
sanctions because they don't--you know, we're getting played 
for fools, quite frankly.
    I want to--I know that you're here to testify about al-
Qaeda in Iraq so I have a question for you. The residents of 
Camp Liberty--are they as dangerous as al-Qaeda?
    Mr. McGurk. No. No, certainly not.
    Mr. Weber. Okay. And yet and we promised them that, did we 
not, that we would protect them and that we would take care of 
them back during the conflict when they were repatriated, so to 
speak, to the camp?
    Mr. McGurk. There were agreements between our kind of 
military commanders at the time when we moved into Iraq at Camp 
Ashraf.
    Mr. Weber. Right, and you're aware of how many of them have 
paid a terrific price with their lives to live there under the 
agreement that we made?
    Mr. McGurk. I am, sir. Yes.
    Mr. Weber. Okay. And you're aware that they're basically 
having to live in graves now--we're not getting T-walls, the 
protection installed that they used--we had? I mean, it's just 
unbelievable the paper thin walls that they're living in and 
the attacks that are coming from outside. You're aware of that?
    Mr. McGurk. Yes, sir. And as I said, I was at the camp this 
month and talked to the residents about what it's like to live 
in a trailer when colleagues of yours are being killed by 
rockets in trailers. It's something that many of us can recall 
quite clearly.
    Mr. Weber. Well, good news and bad news. The good news is 
most of them, as I understand it now, are not living in 
trailers. The bad news is they've had to dig out a 3-foot wide 
by 6-foot grave, basically, and live in it to avoid the rocket 
attacks.
    How long should--how long does that have to go on? Should 
we not be pressing for, A, to get them out of the country and, 
at best, while we're working diligently on that should we not 
be getting them protection? How much longer do you estimate 
that going on?
    Mr. McGurk. As I said earlier, we need to do everything we 
can to get them--to get them out of the country.
    Mr. Weber. Well, you were here 78 days ago. Has their 
situation improved?
    Mr. McGurk. Some more of them have been able to relocate to 
Albania, which--and we have to thank the Albanians for being 
very gracious for taking about 210 residents into Albania.
    Mr. Weber. Okay.
    Mr. McGurk. And we wish there were more countries willing 
to do the same.
    Mr. Weber. I'm told your comments earlier--I was--I was 
late from another hearing--that you made comments that the T-
walls are currently being installed.
    Mr. McGurk. That was the information that I received this 
morning----
    Mr. Weber. Okay.
    Mr. McGurk [continuing]. That they would--the T-walls would 
begin moving in again today or tomorrow.
    Mr. Weber. Would you be interested to know that we've had 
cell phone communication from the residents inside the camp and 
that's not the case?
    Mr. McGurk. All I can say, Congressman, my understanding 
was there was a decision made this morning to begin moving T-
walls back into the camp. Whether or not that's actually 
started or not, I don't know.
    But I can assure you, based upon the information I've 
received that we will follow up and if in fact T-walls are not 
being moved into the camp that will be a very serious matter 
and I will follow up with you as soon as I receive the 
information.
    Mr. Weber. How soon?
    Mr. McGurk. I can follow up with you in the next 48 hours 
to make sure that T-walls are moving back into the camp.
    Mr. Weber. Okay. And is there a third party verification? 
Because when the Iraqi Government--I'm sorry, they just--for me 
they don't have a lot of credibility. It's almost as if the 
residents of Camp Liberty are the enemy and not the victims 
that they are.
    Is there a third--I mean, surely you're not saying that 
you're going to call them and they're going to say of course?
    Mr. McGurk. No, no, no. We will--we will talk to our 
colleagues at the United Nations mission in Iraq and the deputy 
there, George Bustin, who is at the camp regularly and he will 
be able to verify with eyes on whether or not.
    Mr. Weber. As we watch Iraq descend, I hope you make it an 
extreme priority to get them out.
    Mr. McGurk. We will do so. Thank you.
    Mr. Weber. Thank you.
    Chairman Royce. Thank you.
    Well, let me just begin by thanking Mr. McGurk for--not 
just for your time this morning but for your work on this 
issue. As you know--as you can tell, this committee is 
extremely concerned about the resurgence of al-Qaeda, the 
impact that's going to have there in Iraq, the impact it's 
going to have on the region and, of course, even here to us in 
the United States.
    So we thank you for that. We look forward to continuing to 
work with you on the concerns that we have in the House. There 
is one other issue that I meant to raise with you and that's 
just turning for a moment to discuss the inclusion of the 
Kurdish Democratic Party and the Patriotic Union of Kurdistan 
and the PATRIOT Act's Tier 3 designation--terrorist 
designation.
    My understanding is that this has become a sort of catch-
all designation that has inadvertently mislabeled the KDP and 
the PUK as terrorists even though they have been a stabilizing 
force in the region and consistently loyal to the United States 
for decades.
    As al-Qaeda and associated groups expand across the Middle 
East and beyond, it seems like a good time to take count of our 
remaining friends in the region and maybe take a look at this 
inappropriate designation and recognize that that's harming our 
very important relationship with the Kurdish people.
    So would the administration be supportive of a legislative 
solution to this issue that would exclude these Kurdish groups 
from the Tier 3 designation?
    Mr. McGurk. Mr. Chairman, thank you for asking that 
question and for allowing me to put our response on the record.
    As you said, the Kurdish people, the PUK, the KDP have been 
among our closest friends in the region going back decades. We 
think they should be removed from this list as soon as 
possible. We think it is an imperative. We understand that it 
requires a legislative fix.
    It is nothing that we can do by executive action alone and 
therefore we are 100 percent supportive of an immediate 
legislative fix to this problem and we look forward to working 
with you and the relevant committees in Congress to get that 
done.
    Chairman Royce. Well, thank you, Mr. McGurk. We did have to 
get you on the record for that and the Senate is working on 
this with the House, and we very much appreciate once more your 
testimony here today.
    Thank you, Members. We stand adjourned.
    [Whereupon, at 12:10 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


     <F-dash>\<n-iden-3><pound><box> <F-dash><func.-of><Register>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
             \<pound>w<box><Rx>t<star>a<script-l><o-times>
             \<star><r-because><brit-pound><natural><loz>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
